<html>
<title> - STRENGTHENING U.S. ALLIANCES IN NORTHEAST ASIA</title>
<body><pre>[Senate Hearing 113-474]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-474

                     STRENGTHENING U.S. ALLIANCES 
                           IN NORTHEAST ASIA

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON EAST ASIAN 
                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 4, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
                                  ______

                         U.S. GOVERNMENT PRINTING OFFICE 

91-296 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                         ------------          

         SUBCOMMITTEE ON EAST ASIAN AND PACIFIC AFFAIRS        

             BENJAMIN L. CARDIN, Maryland, Chairman        

CHRISTOPHER MURPHY, Connecticut      MARCO RUBIO, Florida
BARBARA BOXER, California            RON JOHNSON, Wisconsin
TOM UDALL, New Mexico                JEFF FLAKE, Arizona
EDWARD J. MARKEY, Massachusetts      JOHN McCAIN, Arizona

                              (ii)        

  
                          C O N T E N T S

                            ----------                              
                                                                   Page

Auslin, Michael, resident scholar, director of Japan Studies, 
  American Enterprise Institute, Washington, DC..................    27
    Prepared statement...........................................    29
Cardin, Hon. Benjamin L., U.S. Senator from Maryland, opening 
  statement......................................................     1
Helvey, David F., Deputy Assistant Secretary of Defense for East 
  Asia, U.S. Department of Defense, Washington, DC...............    10
    Prepared statement...........................................    13
    Response to question submitted for the record by Senator 
      Benjamin L. Cardin.........................................    38
Russel, Hon. Daniel, Assistant Secretary for East Asian and 
  Pacific Affairs, U.S. Department of State, Washington, DC......     3
    Prepared statement...........................................     5
Smith, Dr. Sheila, senior fellow for Japan Studies, Council on 
  Foreign Relations, Washington, DC..............................    21
    Prepared statement...........................................    23
    Council on Foreign Relations Report submitted for the record 
      by Dr. Smith...............................................    39

                                 (iii)
 
                     STRENGTHENING U.S. ALLIANCES 
                           IN NORTHEAST ASIA

                              ----------                              

                         TUESDAY, MARCH 4, 2014

                               U.S. Senate,
    Subcommittee on East Asian and Pacific Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:57 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Benjamin L. 
Cardin (chairman of the subcommittee) presiding.
    Present: Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Let me welcome you all to the Subcommittee 
on East Asian and Pacific Affairs' hearing, ``Strengthening the 
U.S. Alliance in Northeast Asia.''
    I know that Senator Rubio, who had planned to be here today 
as the ranking Republican member, will not be able to be here 
due to the travel problems associated with the weather 
conditions. And, as some might be aware, because of that, 
scheduled votes today in the United States Senate have been 
postponed until tomorrow. So, it probably will mean we will not 
have as many of the members of our subcommittee present today 
as we would otherwise have, but I just want to assure, not only 
our witnesses, but also those who are following this hearing, 
the incredible importance of today's hearing of the 
subcommittee, not just for the Senate Foreign Relations 
Committee, but for the United States Senate.
    This is our first hearing this year. Last year, we held a 
series of hearings dealing with the administration's 
``Rebalance to Asia'' policy. We looked at it from a good 
governance standpoint, we evaluated its economic impact, and we 
also looked at the military security issues as well as 
environmental issues. We covered a lot of specific areas of 
interest that further demonstrated why the ``Rebalance to 
Asia'' is critically important for not only the administration, 
but also for Congress. So, we hope to assess how we are moving 
forward in regards to concrete actions and appropriate 
resources.
    The U.S. alliance with Japan and the Republic of Korea 
serve as the centerpiece of U.S. engagement in Northeast Asia. 
How we work together and how the United States approaches and 
manages these relationships is vital to U.S. security interests 
and has important implications across the entire region.
    In this hearing, we will evaluate the status and trajectory 
of U.S. relations with each of these key allies, and I hope to 
hear from our witnesses on areas where we should increase 
cooperation, both bilaterally and trilaterally.
    Our alliance with Japan is the cornerstone of U.S. 
engagement in the region. Last October, Secretaries Kerry and 
Hagel held a historic meeting in Tokyo with their Japanese 
counterparts and released a joint statement reaffirming the 
alliance and defining steps to upgrade the capability of the 
partnership, including the announcement of a revision to the 
United States-Japan defense guidelines. In recent months, Japan 
established a National Security Council, adopted the National 
Security Strategy, and established the National Defense Program 
Guidelines. These actions are moving Japan toward a more active 
role in the international sphere and opening the door for a 
more robust alliance with the United States. There have been 
positive developments for the Futenma Replacement Facility 
since the Governor of Okinawa approved a landfill permit. But, 
clearly, more challenges remain. When I was in Japan, one of 
the centerpieces of our conversations was the future of United 
States presence in Okinawa and how that relates to our security 
arrangements. And there have been stalled efforts to move that 
forward. Some of that has created political issues, both in 
Japan and the United States. So, it was encouraging to see some 
positive developments.
    In December, Congress passed the National Defense 
Authorization Act providing funding to make way for the 
eventual transfer of marines and their dependents from Japan to 
Guam and Hawaii. United States and Japan reached a milestone 
agreement in 2013, the U.S.-Japan Okinawa Consolidation Plan, 
which lays out details for consolidating and closing U.S. 
military bases in Okinawa and elsewhere in Japan, thereby 
reinforcing our efforts to modernize the alliance to meet 
emerging challenges in the region. And, of course, Japan 
announced last year that they would be joining the Trans-
Pacific Partnership, TPP, negotiations, a step that was 
welcomed by the United States.
    So, I hope at this hearing we can get more specifics on how 
we are moving forward on the security front and on the economic 
front with Japan.
    In South Korea last year, we celebrated the 60th 
anniversary of the alliance. In May, President Park visited the 
United States, and it was an honor to have her address a joint 
session of Congress. And I had a chance to have a conversation 
with her and go over her vision on how to improve security 
arrangements in Northeast Asia. We had a good conversation, and 
she moved forward with the suggestion of developing an OSCE-
type forum for Northeast Asia. South Korea is an important 
economic partner for the United States, particularly since the 
signing and implementation of the U.S.-Korea Free Trade 
Agreement in 2012. And it is promising to see South Korea's 
expression of interest in the Trans-Pacific Partnership.
    In addition, our countries reached final agreement, earlier 
this month, on sharing the defense costs of U.S. troops 
stationed in South Korea. From cooperation on clean energy to 
supporting our mission in Afghanistan, this alliance has truly 
transformed into a global partnership.
    Although we see these positive steps in our bilateral 
alliance, this region is home to some very serious challenges. 
North Korea continues down the path of belligerent and erratic 
behavior, including expanding its Yongbyon uranium enrichment 
facility, restarting the reactor, and displaying complete 
disregard for the welfare of its own people. China continues to 
make aggressive moves to stake its claim in the East China Sea, 
including the November announcement of a new Air Defense 
Identification Zone. Japan and South Korea remain deeply 
suspicious of one another, based on sensitive historical 
issues, and the Japanese Prime Minister's rhetoric on these 
issues is increasingly concerning to many. Additionally, fiscal 
constraints in the United States have raised questions among 
our allies about the potential impact on these important 
alliances. These are all issues I hope we will be able to 
address during this hearing.
    These issues not only demand that we work closely with our 
allies and avoid surprises, but they also present opportunities 
to reinforce our bilateral and trilateral cooperation. We need 
to build on our successes, focus on shared goals, and continue 
to grow and expand our alliance in Northeast Asia to ensure 
each relationship reaches its full potential.
    I hope President Obama will seek to reinforce these 
messages when he travels to the region again next month. I look 
forward to hearing from both our panels today on how we can be 
sure we are well postured from both a diplomatic and a 
strategic perspective in order to address these shared 
challenges.
    And, with that, we will turn to our first panel, where we 
have our government witnesses. And we thank you both for being 
here.
    Daniel Russel is no stranger to this committee, Assistant 
Secretary of State for the Bureau of East Asia and Pacific 
Affairs at the Department of State. Mr. Russel began his tour 
as an Assistant Secretary on July 13 of last year. He 
previously served at the White House as Special Assistant to 
the President and National Security Staff Senior Director for 
Asian Affairs.
    We are also pleased to have with us today David F. Helvey, 
Deputy Assistant Secretary of Defense for East Asia in the 
Office of the Under Secretary of Defense for Policy. 
Previously, he served as the Acting Deputy Assistant Secretary 
of Defense and was a Principal Director for East Asia in the 
Office of the Assistant Secretary of Defense for Asia and 
Pacific Security Affairs, East Asia.
    Welcome to you both. We will start with Mr. Russel.

 STATEMENT OF HON. DANIEL RUSSEL, ASSISTANT SECRETARY FOR EAST 
     ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Russel. Chairman Cardin, thank you very much for the 
opportunity to appear today before you to discuss this 
important set of issues that you laid out in your introductory 
remarks.
    I would like to request that my prepared statement be 
entered into the record.
    Senator Cardin. All the witnesses on both panels, their 
full statements will be made part of the record, so you may 
proceed as you wish.
    Mr. Russel. Thank you.
    The Obama administration has made the Asia-Pacific a 
strategic priority, based on America's stake in a prosperous 
and stable region. And the Department of State is focused on 
dedicating diplomatic, public diplomacy, and assistance 
resources to the region commensurate with the priority and the 
comprehensive nature of our engagement.
    From the outset, the governing principle of this 
administration's Asia rebalance policy has been to ensure close 
ties with our partners and allies. Our alliances with the 
Republic of Korea and with Japan contribute significantly to 
regional security, stability, and prosperity. These alliances 
are rooted in our shared strategic interests, our deep and 
growing economic ties, our shared values, and in extensive 
people-to-people connections.
    I am pleased to report today, Mr. Chairman, that our 
alliances with both countries have never been stronger. We are 
working hard with our Japanese and South Korean partners to 
modernize these alliances and to address broader shared 
interests across the Asia-Pacific and around the globe. I want 
to thank you, Mr. Chairman, as well as members of the other 
subcommittee, for your leadership, your travel, and your public 
statements underscoring the importance of these alliances.
    Let me speak briefly to each relationship.
    The United States-Japan alliance is the cornerstone of 
peace and prosperity in the Asia-Pacific region. We cannot 
achieve our national goals without a strong partnership between 
the United States and Japan.
    And the alliance between the United States and the Republic 
of Korea is the lynchpin of stability and security in Northeast 
Asia. Our alliance with South Korea was forged in shared 
sacrifice in the Korean war, and it continues to anchor 
security on the peninsula today.
    Each alliance relationship rooted in security cooperation 
has evolved into an increasingly global partnership that helps 
provide significant benefits for our people and the 
international community. We cooperate closely on a wide range 
of issues, including humanitarian assistance, disaster relief, 
and in dealing with global hotspots. At the same time, the 
alliances remain focused on the core mission of safeguarding 
our security. In particular, that means deterrence and defense 
against the threat posed by North Korea's continued pursuit of 
nuclear weapons and ballistic missiles. We will continue to 
stand shoulder to shoulder with our allies in the face of this 
danger.
    In order to achieve the shared goal of peaceful 
denuclearization on the Korean Peninsula, we will continue 
closely to coordinate with the ROK and Japan, as well as with 
other partners in the region, such as China.
    And I want to make very clear that our alliances in 
Northeast Asia and around the region are not aimed at China. 
The United States welcomes the rise of a stable and prosperous 
China which plays a greater role in strengthening regional 
stability, prosperity, and international rules and norms. 
Tangible, practical, and visible cooperation between the United 
States and China is critical to addressing regional and global 
challenges, from North Korea to climate change. Similarly, the 
United States seeks good relations between China and its 
neighbors. We encourage all our allies to pursue positive and 
constructive relations with China.
    We are concerned, however, by an increase in risky and 
tension-raising activities by China in the East China Sea near 
the Senkaku Islands, including China's uncoordinated 
announcement of an Air Defense Identification Zone there. These 
concerns are amplified by China's behavior in the South China 
Sea. We will continue to discuss these issues directly with 
China and with affected countries in the region.
    Mr. Chairman, strategic cooperation among the United 
States, Japan, and the Republic of Korea is essential to the 
well-being of all our countries in the region. In light of this 
fact, the current friction between our Japanese and Korean 
allies is a cause for concern and a problem that requires 
dedicated efforts by all parties.
    In closing, let me make one final point. Bipartisan 
congressional support for our alliances and the close 
cooperation between the legislative branches of our three 
countries have been critical to the success we have achieved 
over the last six decades, and will be even more important in 
the future.
    So, thank you for inviting me to testify on this important 
topic. We will hear now from my colleague, but then I am happy 
to answer any questions that you may have.
    [The prepared statement of Mr. Russel follows:]

              Prepared Statement of Hon. Daniel R. Russel

    Chairman Cardin and members of the subcommittee, I am pleased to 
appear before you today to discuss this important topic.
    Early in his first term, President Obama began implementing his 
vision for the Asia-Pacific rebalance, based on America's enduring 
stake in a prosperous and stable region. The United States has been, we 
are, and we will remain a Pacific power. In the second term, the 
administration is building out this strategy. The Department of State 
is focused on dedicating diplomatic, public diplomacy, and assistance 
resources to the region in a way that is commensurate with the truly 
comprehensive nature of our engagement. And under Secretary Kerry we 
are intensifying our support for U.S. companies, climate and energy 
cooperation, people-to-people exchanges, youth and exchange programs, 
education, women's empowerment, and other initiatives.
    The members of this subcommittee know well the importance of the 
Asia-Pacific region to American interests. The broader region boasts 
over half the world's population, half of the world's GDP, and nearly 
half of the world's trade, and is home to some of the world's fastest-
growing economies. More and more American citizens are now living, 
working, and studying in the Asia-Pacific region; people-to-people and 
family ties have witnessed tremendous growth. Growing numbers of 
American companies are investing in and exporting products and services 
to rapidly expanding East Asian markets. And, as the region's economies 
continue to grow and their interests expand, it becomes increasingly 
important that the governments and institutions there contribute to 
upholding and strengthening international law and standards--ranging 
from human rights to environmental protection to responsible policies 
on climate change, maritime security, and trade and investment. Simply 
put, the effects of what happens in the Asia-Pacific region will be 
felt across the globe and have direct implications for America's 
interests.
    For all of the changes in Asia, this much is constant: our 
alliances in the region have been and will remain the foundation of our 
strategy toward the Asia-Pacific. I want to thank you, Mr. Chairman, as 
well as Ranking Member Rubio and the other members of the subcommittee 
for your leadership, travel, and public statements which have all 
underscored the importance of our alliances to our vision of a secure, 
stable, and prosperous Asia-Pacific region. As you have noted, shared 
values and a shared history of successful partnership with the United 
States place Japan and the Republic of Korea (ROK) at the center of 
this administration's rebalance strategy. The success stories of the 
ROK and Japan are powerful reminders of the broad range of benefits 
that accrue from a sustained commitment to free markets, democracy, and 
close cooperation with the United States. Our alliances with the ROK 
and Japan contribute significantly to expanded security, stability, and 
prosperity across the region.
    I am pleased to report today that our ties with both countries have 
never been stronger. Polling shows that the U.S.-ROK relationship 
enjoys record levels of favorability in South Korea--and the United 
States has enjoyed this high level of support for the last 2 years. 
Polling also shows that 84 percent of Japanese citizens support our 
bilateral alliance. But we do not take our allies for granted. We are 
working hard with our Japanese and South Korean partners to adjust our 
presence and to modernize our alliances to help maintain peace and 
security and address broader shared interests across the Asia-Pacific 
and around the globe. The upcoming visit by President Obama to Japan 
and the ROK will propel our efforts.
                          u.s.-japan alliance
    Let me begin with Japan. The U.S.-Japan alliance is the cornerstone 
of peace and prosperity in the Asia-Pacific region; we cannot achieve 
the President's goals without strong and growing ties between the 
United States and Japan. Our two countries are coordinating closely on 
a wide range of issues, including regional security and global 
hotspots. As Secretary Kerry and Foreign Minister Kishida emphasized 
during their meeting in Washington last month, we are working 
diplomatically and militarily to strengthen and modernize the U.S.-
Japan alliance.
    I cannot overstate the importance of our alliance with Japan to 
continued U.S. leadership in the Asia-Pacific. Over 50,000 U.S. 
military and civilian personnel are stationed in Japan under the U.S.-
Japan security treaty and the U.S.-Japan Status of Forces Agreement, 
under which Japan provides facilities and areas for U.S. forces for the 
security of Japan and the maintenance of international peace and 
security. The Japanese Government provides over $2 billion annually to 
offset the cost of stationing U.S. forces in Japan: including the USS 
George Washington, which is the only U.S. aircraft carrier in the world 
that is forward-deployed. This strategic posture means that U.S. forces 
in Japan are capable of carrying out missions throughout the region and 
beyond.
    U.S. support for the Japan Self-Defense Forces' humanitarian 
assistance operations in the wake of the 2011 earthquake and tsunami 
were demonstrations of the alliance's strength and capability and set 
the stage for U.S.-Japan coordination on Typhoon Haiyan relief in the 
Philippines in 2013. The unprecedented landing of a U.S. Marine Corps 
MV-22 Osprey on a Japanese ship during the Haiyan response demonstrated 
our joint capabilities, and highlighted the interoperability of the 
U.S. and Japanese militaries.
    Our security relationship with Japan made remarkable progress in 
2013. Two important successes that my colleague from the Department of 
Defense can discuss in further detail were the October 2013 ``2+2'' 
meeting between Secretaries Kerry and Hagel and their Japanese 
counterparts, which launched the review of our two countries' Bilateral 
Defense Guidelines, and Okinawa Governor Nakaima's signing of the 
landfill permit for the Futenma Relocation Facility. We hope to use the 
Defense Guidelines review process to modernize our respective roles, 
missions, and capabilities for an alliance truly capable of meeting the 
challenges of the 21st century.
    Another key development is the Japanese Government's review of what 
the U.N. Charter describes as, ``the right of collective self-
defense.'' Collective self-defense is simply defined as one nation 
taking action to help defend another nation from attack by a third 
party.
    Japan's Constitution is the only one in the world that explicitly 
renounces war as an instrument of foreign policy. In the past, Japanese 
Governments have chosen to interpret their constitution as not 
permitting the exercise of this right to collective self-defense. It is 
my understanding that the Japanese Government is studying this 
interpretation.
    The practical effect of a decision by Japan that it would be 
permissible to conduct collective self-defense could include enabling 
its U.N. peacekeeping troops to defend other U.N. peacekeepers under 
attack. Under the current policy, if North Korea were to launch a 
ballistic missile toward the United States, Japan could not use its 
ballistic missile defense interceptors to destroy that missile in 
flight. We recognize this is a decision for the Japanese Government and 
people, and we welcome Japan's openness and its steps to consult with 
countries in the region about these deliberations.
                    u.s.-republic of korea alliance
    The U.S.-Republic of Korea alliance is the linchpin of stability 
and security in Northeast Asia. 2013 marked the 60th anniversary of the 
U.S.-ROK Mutual Defense Treaty, which serves as the foundation of our 
alliance and a force for peace and stability on the Korean Peninsula 
and in Northeast Asia. Our alliance with the ROK was forged in shared 
sacrifice in the Korean war, and it continues to anchor security in the 
region today.
    As Secretary Kerry reaffirmed during his meetings with ROK leaders 
in Seoul last month, the U.S.-ROK alliance is a critical component of 
Washington's strategic engagement with the Asia-Pacific. Our open 
societies, our shared commitment to democracy and a market economy, and 
our sustained partnership provide a foundation for the enduring 
friendship that tightly binds the American and Korean peoples. Over the 
past six decades, our close cooperation has evolved into an 
increasingly global partnership, encompassing political, economic, 
social, and cultural cooperation and providing prosperity for both our 
peoples.
    The United States remains dedicated to the defense of the Republic 
of Korea, including through extended deterrence and the full range of 
U.S. military capabilities, both conventional and nuclear, as 
emphasized in the Joint Declaration issued by President Obama and 
President Park in May 2013.
    The United States and the ROK recently concluded negotiations on a 
Special Measures Agreement (SMA), by which South Korea will increase 
its contributions to help offset the cost of stationing of U.S. troops 
on the Korean Peninsula to $867 million in this year alone, 
demonstrating that both nations are politically and economically 
committed to making our alliance more sustainable and adaptable.
    We are constantly working to improve readiness and interoperability 
in order to meet existing and emerging security threats. As my 
colleague Deputy Assistant Secretary Helvey can describe in detail, 
last week the United States and the ROK began two of our largest annual 
joint military exercises, KEY RESOLVE and FOAL EAGLE. Another major 
annual military exercise, ULCHI FREEDOM GUARDIAN, is scheduled for 
August. And even as our alliance continues to counter the threat from 
North Korea, we are expanding our cooperation to meet 21st century 
challenges beyond the Korean Peninsula.
                         dprk-related tensions
    Our alliances with the ROK and Japan provide deterrence and defense 
against the threat posed by the Democratic People's Republic of Korea's 
(DPRK) continued pursuit of nuclear weapons and ballistic missile 
technology. We will continue to stand shoulder-to-shoulder with our 
allies in the face of this growing North Korean threat.
    Mr. Chairman, over the years we have seen a pattern of North Korean 
provocations followed by ``charm offensives'' aimed at extracting 
payoffs and concessions from the West. Despite the DPRK's recent 
overtures at engagement, we have yet to see credible indications that 
North Korea is prepared to come into compliance with the relevant U.N. 
Security Council resolutions, or even negotiate on the key issue: 
denuclearization. The United States remains committed to authentic and 
credible negotiations to implement the September 2005 Joint Statement 
of the Six-Party Talks and to bring North Korea into compliance with 
its international obligations through irreversible steps leading to 
denuclearization. We will not accept North Korea as a nuclear-armed 
state. We will not reward the DPRK merely for returning to dialogue. As 
the President has said, the DPRK can achieve the security, respect, and 
prosperity it claims to seek by choosing the path of denuclearization. 
For our part, the United States pledges to continue working toward a 
world in which the people of North and South Korea are peacefully 
reunited, and the Korean Peninsula is democratic, prosperous, and free 
of nuclear weapons.
    In addition to our concern about the security situation on the 
Korean Peninsula, the United States remains gravely concerned about the 
human rights situation in the DPRK. The U.N. Human Rights Council's 
Commission of Inquiry released its report last month, documenting the 
deplorable human rights situation in the DPRK. We are working 
tirelessly to persuade the DPRK Government to release Kenneth Bae, the 
U.S. citizen who has been held in North Korea for more than a year. We 
welcome the recent release of an Australian citizen, but continue to 
urge the DPRK Government to release the ROK citizen still under 
detention, just as we seek resolution of the cases of the many ROK, 
Japanese, and other citizens abducted and held by North Korea over the 
decades.
                     challenges: regional tensions
    Mr. Chairman, the United States takes a clear position with regard 
to behavior of states in connection with their territorial or maritime 
disputes: we firmly oppose intimidation, coercion, and the use of 
force. In the East China Sea, we are concerned by an unprecedented 
increase in risky activity by China's maritime agencies near the 
Senkaku Islands. The United States returned administration of the 
Senkakus to Japan in 1972, and they fall within the scope of the U.S.-
Japan mutual defense treaty, in particular its Article V. Tensions over 
the Senkakus have led to a sharp downturn in Sino-Japanese relations. 
China and Japan are the world's second- and third-largest economies and 
have a shared interest in a stable environment to facilitate economic 
prosperity. Neither of these two important countries, nor the global 
economy, can afford confrontation and crisis.
    We object to unilateral actions that seek to change the status quo 
or advance a territorial claim though extra-legal or nondiplomatic 
means. Unilateral attempts to change the status quo raise tensions and 
do nothing under international law to strengthen claims. Therefore we 
were also concerned by China's sudden and uncoordinated announcement of 
the Air Defense Identification Zone (ADIZ) over the East China Sea last 
November. One of the problems with the Chinese ADIZ announcement is 
that it purports to cover areas administered or claimed by Japan and 
the ROK. We have been clear that China should not attempt to implement 
or enforce the ADIZ and it should refrain from taking similar actions 
in other sensitive or disputed areas.
    I do not believe that any party seeks armed conflict in the East 
China Sea, but unintended incidents or accidents may lead to an 
escalation of tensions or a tit-for-tat exchange that could escalate. 
As such, we wholeheartedly endorse calls for crisis-prevention 
mechanisms, including senior-level communications to defuse situations 
before they become full-blown crises.
    Our concerns are amplified by the situation in the South China Sea, 
where we are seeing a similar pattern of coercive behavior, strident 
rhetoric, and ambiguous claims. This is an issue that senior 
administration officials have raised directly and candidly with Chinese 
leaders.
    I would like to underscore for the committee that the Obama 
administration has consistently made best efforts to build a strong and 
cooperative relationship with China. Tangible, practical, and visible 
cooperation between the United States and China is critical to 
addressing regional and global challenges, from North Korea to climate 
change. Similarly, the United States seeks good relations between China 
and its neighbors; we encourage all our allies to pursue positive and 
constructive relations with China. I want to make very clear that our 
alliances, in Northeast Asia and around the region, are not aimed at 
China.
    The United States welcomes the rise of a stable and prosperous 
China which plays a greater role in strengthening regional stability, 
prosperity, and international rules and norms. A strong diplomatic, 
economic, and military presence by the United States has helped create 
the conditions that made China's extraordinary growth possible and that 
presence remains essential to regional stability. No country should 
doubt the resolve of the United States in meeting our security 
commitments or our determination to uphold the principle of freedom of 
navigation and overflight. But neither should there be any doubt about 
the administration's desire for constructive relationship with China 
based on solving regional and global problems as well as managing 
disagreement and areas of competition.
             strategic cooperation in the region and beyond
    One of the strongest signs of the maturity of our partnerships with 
the ROK and Japan is our cooperation on global issues beyond our 
respective borders, from humanitarian assistance to climate change. The 
benefits of our cooperation with Japan and South Korea are not limited 
to the people of our three countries, but increasingly accrue to 
citizens around the world.
    Yet at this moment, and despite our many areas of cooperation and 
common interest, relations between Japan and the Republic of Korea are 
strained. The current tension between our two allies is a cause for 
concern, and a problem that requires sincere efforts by both parties to 
address. There is an urgent need to show prudence and restraint in 
dealing with difficult historical issues. It is important to handle 
them in a way that promotes healing. We are working closely with our 
Japanese and ROK partners to encourage them to take the steps needed to 
resolve tensions caused by the legacy of the last century through 
patient and persistent diplomacy. The simple fact, Mr. Chairman, is 
that strategic cooperation among the United States, Japan, and the ROK 
is essential to developing the security order in Northeast Asia, 
especially given the threats facing us and our allies from North Korea 
and other regional uncertainties. No one can afford to allow the 
burdens of history to prevent us from building a secure future.
    That is why it is so important that we have been able to cooperate 
with Japan and the ROK on relief efforts, development, and other 
important projects throughout Southeast Asia. For example, we saw the 
benefits of increased trilateral disaster response capacity just last 
fall when the United States, Japan, and South Korea were leading 
contributors of humanitarian and recovery assistance to the Philippines 
following the devastation left by Typhoon Haiyan. We are working 
trilaterally with the ROK and Japan to further improve our 
interoperability and information sharing during a disaster.
    Japan and South Korea are models for other nations in the region 
and around the world. Both the ROK and Japan have transitioned from 
one-time recipients of foreign aid to important donors. Whereas once 
Peace Corps Volunteers were seen throughout the ROK, the Peace Corps 
and its counterpart recently signed a memorandum of understanding that 
will enable both parties to cooperate in third countries around the 
world--in fact, the ROK's Peace Corps counterpart is now the world's 
second-largest after our own Peace Corps. Last December, during Vice 
President Biden's visit, the United States and Japan announced the 
initiation of a U.S.-Japan Development Dialogue between our respective 
foreign assistance and foreign affairs agencies. The first formal 
meeting of that dialogue took place last month in Washington.
    The Republic of Korea and Japan have been active supporters of 
international efforts to resolve the Iranian nuclear issue. We are 
working together on Syria, where Japan and the ROK are providing 
assistance to address the humanitarian needs of the Syrian people and 
where both have strongly supported international efforts to find a 
political solution. U.S. and ROK soldiers have served side by side in 
Afghanistan, where the Republic of Korea and Japan are major donors to 
reconstruction and stabilization efforts. Japan has provided over $1.35 
billion in assistance to the Palestinians since the mid-1990s, making 
Japan one of the major donors to the Palestinians after the United 
States. Our cooperative partnerships with Japan and the Republic of 
Korea enable increased engagement and impact on a global scale. Both 
Japan and the ROK are invaluable partners on the international stage, 
as well; both currently promote our shared values while serving on the 
U.N. Human Rights Council, and this year the ROK will complete a 
successful term on the U.N. Security Council.
                             alliance ties
    Our deep economic and trade ties with Japan and the ROK provide 
practical benefits, jobs, and lower consumer prices to Americans. To 
reap the full reward of our alliance partnerships, we are working to 
further strengthen our economic relationships and harness the dynamism 
of growth in the Asia-Pacific region for the benefit of the American 
people.
    The revitalization of Japan's huge economy is of direct interest to 
the United States. An economically vibrant Japan will attract more U.S. 
exports, help stimu- 
late even greater Japanese investment in the United States, and serve 
as a model and source of growth across the Asia-Pacific region. 
Economic growth will also strengthen Japan as an important partner. We 
support Japan's goal of unlocking greater growth through structural and 
regulatory reforms and are working with the private sector as well as 
Japanese counterparts to bring out the best ideas and solutions to this 
end. We are also working with Japan to increase economic opportunities 
for women, both in our own economies and globally. Japanese companies 
account for approximately 650,000 jobs in the United States, and the 
United States is one of the largest sources of foreign investment in 
Japan. Our relationship will continue to grow closer in response to 
changes such as the availability of U.S. oil and gas to the 
international market, further integration in high-tech manufacturing, 
and mutual support for innovative enterprise.
    The Republic of Korea is Asia's fourth-largest economy, our sixth-
largest goods trading partner, and our fifth-largest export market for 
agricultural goods. Our two countries have one of the most vibrant 
trading relationships in the world. Two years since the U.S.-Korea Free 
Trade Agreement (KORUS FTA) entered into force, our bilateral trade in 
goods now tops $100 billion annually. During 2012 and 2013, the U.S. 
enjoyed a $4.4 billion foreign direct investment surplus with Korea. 
That positive trend looks likely to continue, with recent developments 
including Hankook Tire's announcement that it plans to invest $800 
million to build its first U.S. production plant in Clarksville, TN. 
The United States is the top destination for ROK foreign direct 
investment, and Hyundai, Kia, and Samsung now employ thousands of U.S. 
workers. We are working closely with the Republic of Korea to ensure it 
fully implements both the letter and spirit of its KORUS commitments, 
in order to be able to realize the full strategic and economic benefits 
of the FTA.
    As Secretary Kerry noted recently, ``A shared commitment to 
economic growth and innovation is part of why the Trans-Pacific 
Partnership (TPP) agreement is a cornerstone of the President's 
economic policy in Asia.'' That's why one of our highest economic 
priorities in the region is the successful completion of the TPP 
negotiations. In the United States, Japan, and other member nations, 
the TPP will support jobs, foster new business opportunities, and 
promote economic growth. The TPP will serve as a platform for building 
a high-standard trade and investment framework for the Asia-Pacific 
region--promoting transparency, openness, and innovation. Given close 
trade ties and the strategic importance of closer economic cooperation 
with our allies, we naturally welcome the ROK's expression of interest 
in joining the TPP.
    Underpinning the historic success of our alliances and our hopes 
for the future are the robust people-to-people ties between citizens of 
the United States and citizens of Japan and South Korea. They form the 
foundation of our partnerships with both countries, helping us to 
understand and appreciate each other.
    Our people-to-people ties with the ROK are dynamic and strong. The 
ROK sent over 70,000 young people to study in the United States last 
year--more per capita than any other major sending country--and the 
number of U.S. students going to the ROK continues to rise. Continuing 
the trend of U.S.-ROK innovation and investment in educational 
exchange, last October our countries renewed the Work, English, Study, 
and Travel (WEST) program, which provides opportunities for qualified 
university students and recent graduates from the ROK to study English, 
participate in internships, and travel independently in the United 
States. ROK students contribute over $2 billion to the U.S. economy; 
even more important than the immediate economic boost these students 
bring is the intangible long-term investment in our alliance--a shared 
experience that underscores to younger generations the enduring value 
of our partnership.
    The Japanese Government has made educational internationalization a 
component of its growth strategy, and both our governments are working 
with the private sector, academia, and NGOs to expand mutual 
understanding and friendship between our young people. While the number 
of Japanese students earning credit at higher education institutions in 
the United States has dropped sharply over the last decade, the United 
States and Japan are committed to increasing two-way student exchange, 
and both countries have already taken steps--such as increasing grants 
for study abroad and demystifying the U.S. visa process--that we hope 
will reverse this trend. We remain dedicated to working with Japan to 
double student and youth exchanges by 2020 to ensure that our 
partnership remains strong for decades to come.
    I want to make a special note, Mr. Chairman, of acknowledging the 
Americans in uniform who are currently serving, or have served, in 
Korea and Japan. Our strong relations with Japan and the ROK would not 
be possible without the hundreds of thousands of men and women in 
uniform who have dedicated themselves in the service of our strategic 
alliances. These service men and women represent the best of the United 
States in Japan, the ROK, and around the Asia-Pacific region, and upon 
their return to the United States, they continue to serve as grassroots 
ambassadors for the great friendship between the United States and our 
allies.
                               conclusion
    Our alliances with Japan and the ROK are rooted in shared strategic 
interests in the Asia-Pacific region and around the world, our deep 
economic ties, and, most importantly, our shared values and the strong 
personal relationships that have developed through extensive people-to-
people ties. Our alliances have never been stronger, and the United 
States is actively working to deepen our engagement with both 
countries.
    In closing, let me make one final point. Strong, enduring, 
bipartisan congressional support for our alliances and the close 
cooperation between the legislative branches of our three countries 
have been critical to the success we have achieved over the last six 
decades, and will be even more important in the future.

    Senator Cardin. Thank you very much.
    Mr. Helvey.

  STATEMENT OF DAVID F. HELVEY, DEPUTY ASSISTANT SECRETARY OF 
DEFENSE FOR EAST ASIA, U.S. DEPARTMENT OF DEFENSE, WASHINGTON, 
                               DC

    Mr. Helvey. Thank you, Mr. Chairman. Thank you for the 
opportunity to appear today to offer perspectives from the 
Department of Defense on our alliances in Northeast Asia.
    Our treaty alliances and other partnerships remain the 
foundation for protecting our interests and achieving our 
security objectives in the Asia-Pacific region, which is why 
the modernization and continued transformation of these 
critical relationships forms a central pillar of President 
Obama's strategy to rebalance to the Asia-Pacific.
    Our treaty alliances in Northeast Asia with Japan and the 
Republic of Korea support this strategy through contributing to 
a secure and prosperous region, facilitating a defense posture 
that is geographically distributed, operationally resilient, 
and politically sustainable, investing in interoperability and 
strengthening our regional defense cooperation to promote 
shared interests and advance international rules and norms.
    I am pleased to have the opportunity, again, to meet today, 
and I commend the committee's continued interest in this 
important subject.
    Mr. Chairman, transforming our alliances and partnerships 
to meet the challenges of the 21st century is the central 
driver of our efforts with both Japan and the Republic of 
Korea. We have developed for each alliance a forward-looking 
agenda based on enhancing security, increasing the ability of 
our militaries to work together seamlessly, and building our 
allies' capacity to contribute to regional and global security.
    Our alliance with Japan remains the cornerstone of peace 
and security in the Asia-Pacific region. In October, Secretary 
Hagel joined Secretary Kerry and their Japanese counterparts in 
Tokyo for a historic U.S.-Japan Security Consultative Committee 
meeting that reconfirmed the alliance's commitment to the 
security of Japan through the full range of U.S. military 
capabilities, and that set forth a strategic vision reflecting 
our shared values to promote peace, security, stability, and 
economic prosperity in the Asia-Pacific.
    As part of these efforts, we will be revising our bilateral 
guidelines for defense cooperation for the first time since 
1997, updating our alliance roles and missions, and 
incorporating new areas of cooperation, such as space and cyber 
defense. The revision of the guidelines, which we hope to 
complete by the end of 2014, will ensure that our alliance is 
capable of responding to the 21st-century challenges. And I can 
point to the unprecedented landing of the U.S. Marine Corps MV-
22 Osprey on a Japanese ship during the Haiyan response, 
demonstrating the interoperability of the United States and 
Japanese militaries and our ability to work jointly, as an 
example of what lies ahead.
    We are also taking steps to ensure that our forward 
military presence in Japan is sustainable over the long term. 
In December 2013, the Governor of Okinawa approved the 
Government of Japan's request for a landfill permit necessary 
to construct a new airfield at Camp Schwab to replace Marine 
Corps Air Station Futenma. This was a major step forward. 
Closing Marine Corps Air Station Futenma and returning other 
U.S. facilities and areas in Okinawa is central to our plans to 
reduce the Marine Corps presence on Okinawa by about 9,000 and 
establish a Marine air-ground task force of about 5,000 marines 
on Guam. We are delighted that this effort is now on track, and 
we are confident that the ultimate result will be one that is 
good for the United States, good for the United States-Japan 
alliance, and good for the people of Okinawa.
    Finally, Japan is one of our most significant ballistic-
missile defense partners. Japan is codeveloping the SM-3 Block 
IIA. It hosts the U.S. Navy's Seventh Fleet. It operates its 
own BMD-capable Aegis ships, and has agreed to host a second 
ballistic missile defense radar, in addition to the radar that 
is already located in Shariki. We hope to have the second radar 
operational by the end of 2014.
    Turning to the Republic of Korea, our alliance with the 
Republic of Korea continues to serve as a lynchpin of peace and 
stability in the region, and is evolving into a partnership 
that contributes to security across the globe. Last year, we 
celebrated the 60th anniversary of the United States-Republic 
of Korea alliance, welcomed President Park's first year in 
office, and stood shoulder to shoulder in the face of North 
Korean provocation.
    In October, Secretary Hagel met with Minister Kim for the 
45th security consultative meeting in Seoul, a meeting which 
reaffirmed our bilateral commitment to build a comprehensive 
strategic alliance based on common values and mutual trust, as 
well as our two nations' commitment to defend the Republic of 
Korea through a robust combined defense posture.
    In light of the continued threat posed by North Korea, we 
are taking a number of steps to enhance our force posture and 
capabilities on the Korean Peninsula so that our combined 
forces can continue to deter and, if necessary, respond to 
North Korean aggression or provocation.
    Mr. Chairman, the dynamic nature of the region, and the 
growing threat from North Korea, make trilateral cooperation 
among the United States, the Republic of Korea, and Japan more 
important than ever. Simply put, trilateral security 
cooperation is an essential element of deterrence against North 
Korean threats. The Department of Defense encourages a healthy 
and open United States, Republic of Korea, and Japan 
relationship. To that end, we will continue to look for 
opportunities for our three countries to exercise together and 
to use the defense trilateral talks to promote cooperation, 
dialogue, and transparency between Tokyo and Seoul.
    Let me turn briefly to offer some perspectives on another 
important relationship, the relationship with China. China's 
economic dynamism, regional influence, and comprehensive 
military modernization present both opportunities and 
challenges for the United States-China relationship. We seek a 
constructive and productive United States-China relationship in 
which we will pursue opportunities to engage where there is 
mutual benefit while managing differences in areas of 
competition.
    Within the Department of Defense, we seek to build a United 
States-China military-to-military relationship that is healthy, 
stable, reliable, and continuous and supports--and serves as an 
important part of the overall bilateral relationship. However, 
we remain concerned about the lack of transparency regarding 
China's growing military and its increasingly assertive stance 
on territorial and maritime disputes. We encourage all parties, 
including China, to deal with their disputes peacefully, 
without coercion or the use or threat of force, and to ensure 
that the maritime claims are resolved in accordance with 
international law. A first step is peacefully addressing these 
disputes would be to quickly reach agreement with ASEAN on a 
meaningful code of conduct for the South China Sea.
    Mr. Chairman, the Department of Defense will continue to 
prioritize the Asia-Pacific region, particularly our 
cooperation with our allies in Northeast Asia. We remain 
steadfast in our defense commitments to both Japan and the 
Republic of Korea, and we will continue to work to improve 
security cooperation, enhance military capabilities, and 
modernize each of these critical alliances. We look forward to 
continued support of this committee as we continue to rebalance 
toward the Asia-Pacific.
    Thank you, sir.
    [The prepared statement of Mr. Helvey follows:]

                 Prepared Statement of David F. Helvey

    Mr. Chairman and distinguished members of the committee, thank you 
for the opportunity to appear before you today to offer perspectives 
from the Department of Defense on efforts to strengthen and transform 
our alliances in Northeast Asia.
    Our treaty alliances and partnerships remain the foundation for 
protecting our interests and achieving our security objectives in the 
Asia-Pacific region, which is why the modernization and continued 
transformation of these critical relationships forms a central pillar 
of President Obama's strategy to Rebalance to the Asia-Pacific. Our 
treaty alliances in Northeast Asia--with both Japan and the Republic of 
Korea (ROK)--contribute directly to this strategy, principally through 
their contributions to promote a secure and prosperous region; to 
facilitate the enhancement of a geographically distributed, 
operationally resilient, and politically sustainable defense posture in 
the region; to strengthen our readiness through updates to our 
operational concepts and plans; to invest in interoperable capabilities 
that are most relevant to the future security environment; and, to 
strengthen regional defense cooperation in a way that promotes shared 
interests and that advances international rules and norms. I am pleased 
to have the opportunity to describe how our alliances help meet these 
objectives and I commend the committee's continued interest in this 
important subject.
    Mr. Chairman, we are actively working with Japan and the ROK to 
transform and modernize our alliances in ways that ensure they meet our 
original security goals of assurance and deterrence while also building 
our alliances into platforms for broader cooperation on traditional and 
nontraditional security challenges, both in Asia and globally. In fact, 
transforming our alliances and partnerships to meet the challenges of 
the 21st century is the central driver of our efforts with both Japan 
and the Republic of Korea. In recent years, and in concert with the 
senior leaders of both countries, we have developed for each alliance a 
forward-looking agenda based on enhancing security, increasing the 
ability of our militaries to work together seamlessly, and building our 
allies' capacity to contribute to regional and global security.
    Our alliance with Japan remains the cornerstone of peace and 
security in the Asia-Pacific region. In October, Secretary Hagel joined 
Secretary Kerry in Tokyo for the U.S.-Japan Security Consultative 
Committee (SCC), or 2+2, a historic meeting that marked the first time 
Japan has hosted this bilateral meeting for the Secretary of Defense 
and Secretary of State to meet with both of their counterparts. That 
meeting reaffirmed the indispensable role our two countries play in the 
maintenance of international peace and security, reconfirmed our 
alliance's commitment to the security of Japan through the full range 
of U.S. military capabilities, and set forth a strategic vision that, 
reflecting our shared values of democracy, the rule of law, free and 
open markets, and respect for human rights, will effectively promote 
peace, security, stability, and economic prosperity in the Asia-Pacific 
region. As part of our efforts to strengthen this critical partnership, 
we will be revising our bilateral Guidelines for Defense Cooperation 
for the first time since 1997, updating alliance roles and missions in 
peacetime and during contingencies to reflect the contemporary security 
environment, and incorporating new areas of cooperation such as space 
and cyber defense. This revision of the Guidelines, which we hope to 
complete by the end of 2014, will ensure that our alliance is capable 
of responding to 21st century challenges.
    In addition to updating alliance roles and missions, we are taking 
steps to ensure that our forward military presence in Japan is 
sustainable over the long term. Critical to this effort is our plan for 
the realignment of U.S. Marine Corps forces on Okinawa. In December 
2013, Governor Nakaima of Okinawa approved the Government of Japan's 
request for a landfill permit necessary to construct a new airfield at 
Camp Schwab to replace Marine Corps Air Station Futenma. This was a 
major step forward, and is testament to the strong leadership and 
commitment to the alliance on the part of Prime Minister Abe. Closing 
MCAS Futenma and returning other U.S. facilities and areas in Okinawa--
approximately 2,500 acres of land--is central to our plans to reduce 
the Marine Corps presence on Okinawa by about 9,000 and establish a 
Marine Air Ground Task Force of about 5,000 Marines on Guam.
    When this effort is complete, we will have operational Marine Air-
Ground Task Forces in multiple locations across the theater, increasing 
our ability to respond quickly to regional crises and contingencies. 
The remaining Marines on Okinawa will be more concentrated in less 
populated parts of the island, and centered on a new air station that 
the Government of Japan will build. This realignment and movement of 
troops to Guam advances our goal of having a geographically 
distributed, operationally resilient, and politically sustainable force 
presence in the region. We are delighted that this effort is now on-
track, and are confident that the ultimate result will be one that is 
good for the United States, for the U.S.-Japan Alliance, and for the 
people of Okinawa.
    Finally, it is worth emphasizing that Japan is one of our most 
significant ballistic missile defense (BMD) partners, as evidenced by 
our cooperation in codeveloping the next generation sea-based 
interceptor, the SM-3 Block IIA; its role as host for the U.S. Navy 7th 
Fleet, and the Japan Maritime Self Defense Force's own BMD-capable 
Aegis ships; and its agreement to host a second TPY-2 BMD radar, in 
addition to the radar already located in Shariki. We hope to have the 
second radar operational by the end of 2014. Japan is truly a model BMD 
partner, and we look forward to expanding on that cooperation in the 
future.
    Similarly, the U.S.-ROK Alliance continues to serve as a linchpin 
of peace and stability in the region and is evolving into a partnership 
that contributes to security across the globe. Last year we celebrated 
the 60th Anniversary of the U.S.-ROK Alliance, we welcomed President 
Park's first year in office, and we continued to stand together in the 
face of North Korean provocation. In October, Secretary Hagel met with 
Minister Kim in the 45th Security Consultative Meeting (SCM). That 
meeting reaffirmed our bilateral commitment to build a comprehensive 
strategic alliance based on common values and mutual trust as well as 
our two nations' mutual commitment to defend the Republic of Korea 
through a robust combined defense posture. To enhance effective 
deterrence options against North Korean nuclear weapons and other 
weapons of mass destruction (WMD), Secretary Hagel and Minister Kim 
formally endorsed a bilateral ``Tailored Deterrence Strategy'' that 
establishes a strategic alliance framework that strengthens the 
integration of alliance capabilities to maximize their deterrent 
effects.
    In light of the threats posed by North Korea, we are also taking a 
number of steps to enhance our force posture and capabilities on the 
Korean Peninsula. We are especially focused on enhancing the alliance's 
military capabilities to ensure that our combined forces maintain the 
defense of the Republic of Korea and can deter and, if necessary, 
respond to North Korean aggression or provocation. One of our highest 
priorities is the development of comprehensive alliance countermissile 
capabilities to detect, defend against, disrupt, and destroy missile 
threats. This effort includes interoperable intelligence, surveillance, 
and reconnaissance (ISR) systems and missile defenses, as well as the 
supporting command, control, communications, and computers (C4).
    As part of our work to modernize the alliance, we continually 
assess progress toward implementation of the Strategic Alliance 2015 
(SA 2015) plan in order to ensure continued readiness to provide for 
the combined defense of the Korean Peninsula after the transition of 
operational control in wartime to the ROK. A new cost-sharing agreement 
with the ROK will help ensure that we have the resources necessary for 
the combined defense and that both countries are sharing in the 
investment the alliance requires to defend South Korea. We continue to 
make progress in the development of our bilateral plans, including the 
completion last March of the U.S.-ROK Counter-Provocation Plan, which 
enables our two countries to respond jointly and more effectively to 
North Korean provocations. We also regularly exercise to ensure the 
readiness of the Combined Forces Command (CFC). Currently, we are in 
the middle of the bilateral military exercises KEY RESOLVE and FOAL 
EAGLE, which are, respectively, an annual command post exercise and an 
annual series of joint and combined field training exercises.
    In addition to advancing our bilateral alliances with Japan and the 
ROK, the dynamic nature of the region and the growing threat from North 
Korea make trilateral cooperation among the United States, the ROK, and 
Japan more important than ever. Simply put, trilateral security 
cooperation is an essential element of deterrence against North Korean 
threats. The Department of Defense encourages a healthy and open 
trilateral relationship in order to facilitate better relations with 
our two closest allies in Northeast Asia. To that end, we continually 
look for opportunities for our three countries to participate in 
military exercises and highly value our Defense Trilateral Talks (DTT) 
as a forum to promote cooperation, dialogue, and transparency between 
Tokyo and Seoul.
    Let me turn briefly to offer some perspectives from the Department 
of Defense on another important relationship, the relationship with 
China.
    China's economic dynamism, regional influence, and pursuit of a 
long-term, comprehensive military modernization program, present both 
opportunities and challenges for the U.S.-China relationship. Thus, we 
seek a constructive and productive U.S.-China relationship, in which we 
will pursue opportunities to engage where there is mutual benefit, 
while managing differences and areas of competition. Within the 
Department of Defense, we seek to build a U.S.-China military-to-
military relationship that is healthy, stable, reliable, and 
continuous, and an important part of the overall bilateral 
relationship. The Department is pursuing three key areas of focus for 
the military-to-military relationship: (1) sustained, substantive 
dialogue; (2) concrete, practical cooperation in areas of mutual 
interest such as counterpiracy, humanitarian assistance and disaster 
relief, military medicine, and maritime safety; and (3) building risk 
reduction mechanisms to manage differences responsibly.
    However, we remain concerned about a lack of transparency regarding 
China's growing military and its increasingly assertive behavior in the 
maritime domain, highlighted by its announcement in November of an Air 
Defense Identification Zone in the East China Sea and continued 
pressure against other claimants in the South China Sea based on its 
ill-defined ``9-dash line'' claim. We encourage all parties, including 
China, to reject intimidation, coercion, and aggression and to base 
their claims on well-founded principles of international law and to 
pursue them peacefully through diplomatic processes in accordance with 
international law and norms through the establishment of peaceful, 
diplomatic processes for preventing maritime conflicts. A good first 
step would be timely conclusion of a China-ASEAN Code of Conduct for 
the South China Sea.
    Moving forward, as the United States builds a stronger foundation 
for a military-to-military relationship with China, we will also 
continue to monitor China's evolving military strategy, doctrine, and 
force development and encourage China to be more transparent about its 
military modernization program. In concert with our allies and 
partners, the Department will continue adapting U.S. forces, posture, 
and operational concepts to maintain a stable and secure Asia-Pacific 
security environment.
    Mr. Chairman, the Department of Defense will continue to prioritize 
the Asia-Pacific region, particularly our robust cooperation with 
allies in Northeast Asia. We remain steadfast in our defense 
commitments to both Japan and the Republic of Korea and will continue 
to work to improve security cooperation, enhance military capabilities, 
and modernize each of these critical alliances. We look forward to the 
continued support of this committee as we continue to rebalance toward 
the Asia-Pacific.

    Senator Cardin. Well, thank both of you for your testimony, 
but, more importantly, thank you for your service during this 
critically important time.
    Mr. Helvey, I want to start with a statement that was made 
this morning. I understand that it has been somewhat taken 
back, but I want to make sure that the record is clear here. I 
am referring to Assistant Secretary of Defense Katrina 
McFarland talking about the administration's budget as it 
relates to the Department of Defense. And she said, and I 
quote, ``Right now, the pivot is being looked at again, 
because, candidly, it cannot happen.'' That had many of us 
concerned as to the administration's commitment to the 
Rebalance to Asia. Can you clarify the current priority within 
the administration and how this budget will be consistent with 
that priority?
    Mr. Helvey. Well, sir, there has been a clarification that 
was issued, and, you know, in brief, the Rebalance to Asia can 
and will continue. And this is exactly what we have done in the 
2015 Defense budget.
    The President's decision to rebalance to the Asia-Pacific 
reflects a careful assessment of the long-term U.S. interest in 
the peace and prosperity of the Asia-Pacific region, and also 
reflects the strong and inextricable ties between the United 
States and other Pacific nations. In this respect, the 
rebalance is driven by our calculation of our interests rather 
than determined by the resources.
    This is not to say that resources do not count, however. As 
Secretary Hagel spoke of last week in discussing the 2015 
budget which was submitted today, the funding levels we seek 
provide the opportunity to present a responsible approach that 
protects readiness and modernization while maintaining a force 
large enough to fulfill our defense strategy, though with some 
additional risk. As he said, we have to adapt, innovate, and 
make difficult decisions. And we have done that in our budget. 
Our resourcing will enable us to uphold our commitment to the 
region, including a strengthened posture and presence, and 
ensure the United States preserves its status as the preeminent 
military power in the region.
    Senator Cardin. Thank you for that clarification.
    Let me just point out, when you look at the regional 
bureaus and the support that they have received within the 
Department of State budget and within DOD, Asia, while not at 
the bottom, is not as strong as it should have been. The last 
several budgets by the Obama administration have tried to 
balance that to reflect the priority in Asia. Can we expect 
that resources will continue to be prioritized toward the 
Rebalance to Asia?
    Mr. Helvey. Yes, sir, at least from within the Defense 
budget, our resources do reflect those priorities, as outlined 
in the Defense Strategic Guidance from 2012. As I said, the 
budget that we have presented allows us to fulfill our defense 
strategy, which includes the rebalance toward the Asia-Pacific.
    Now, within the Department of Defense, as you know, sir, 
our budgets are not allocated by region, they are allocated 
through the services. And so, many of the things that we are 
doing, whether it is partner-building capacity or cooperation, 
investing in capabilities that are most relevant to the Asia-
Pacific, those are reflected in the budget.
    Senator Cardin. In the Department of State, there are 
regional allocations. How are we doing, Mr. Russel, with the 
budget?
    Mr. Russel. Well, thank you for asking, Chairman. This is 
an important priority for all of us, and it is an important 
priority for President Obama. I know, from my time at the 
National Security Council, when we conducted an interagency 
exercise, along with the Office of Management and Budget, to 
bring together not only the Asia policy people from each of the 
relevant departments, but also the comptrollers and the budget 
people, to underscore the priority that President Obama places 
on the Asia-Pacific as a strategic priority.
    In the case of the State Department, as you noted, the 
Obama administration has made some headway in funding more 
robustly our Asia-Pacific priorities. And, while Secretary 
Kerry himself will be testifying before the Senate on the State 
Department budget next week, and I know, as a matter of 
practice, it is not good for the Assistant Secretary to get out 
ahead of the Secretary, I can say, as Deputy Secretary Heather 
Higginbottom briefed the press earlier today, that the 
President's fiscal year 2015 budget represents a continuation 
of the commitment to fully fund the rebalance.
    I know that the fiscal year budget, like the FY14 request, 
the budget for 2015 shows a significant increase in funding for 
our programs in the Asia-Pacific region. I believe Deputy 
Secretary Higginbottom pegged that at approximately a 9-percent 
increase. Moreover, in other areas, including public diplomacy 
and in the overall utilization and ability to maximize the 
resources and the personnel that we have in the region, we 
believe that we have made, and continue to make, headway in 
intensifying our efforts in fulfilling our national strategy.
    Senator Cardin. Thank you for that. I had not intended to 
spend time at this hearing on that, but, considering Secretary 
McFarland's initial comments, I thought it was important that 
we clarify that. And I expect, next week, when Secretary Kerry 
is before the full committee on his budget, that we are going 
to be talking more about Ukraine, Iran, and Syria than we will 
be able to get into the specifics on the budget, but I do 
intend to ask questions for the record on some of these issues, 
and I am pleased to hear your comments, Mr. Russel.
    Mr. Helvey, I want to discuss part of your statement on 
dealing with the Okinawa stationing of marines. This has been a 
thorn in our relationship for over 15 years. The community 
certainly has changed dramatically since that military facility 
was first constructed. It has presented a real PR problem 
between Japan and the United States. We all recognize that our 
future alliance requires different locations for facilities, 
and we have been working on this for a long time. And there 
have been challenges. There have been challenges in Japan, 
there have been challenges in Congress, there have been a lot 
of questions asked, a lot of good questions asked, about the 
economics of this and whether it works, and whether it works 
for the future.
    So, I am very much interested in your, I guess, summary 
comment, ``We are delighted that this effort is now on track, 
and are confident that the ultimate result will be one that is 
good for the United States, for the United States-Japan 
alliance, and for the people of Okinawa.''
    If you would not mind just expanding a little bit more as 
to what you think is a realistic time schedule for us to 
implement the understanding between Japan and the United 
States.
    Mr. Helvey. Well, sir, thank you for that question. As you 
pointed out, this is a longstanding issue that we have been 
working with our colleagues and counterparts in the Government 
of Japan. Since at least 1996, the United States and Japan have 
been in agreement on the need to relocate the existing Marine 
Corps Air Station at Futenma, around which, as you noted, a 
significant population has grown in recent years.
    Since 1999, we have agreed on a site in the vicinity of 
Camp Schwab, near the village of Henoko, so I am--this kind of 
gives you a sense of, you know, the timeline as it has evolved. 
And this, again, was confirmed most recently last October in 
the Two-Plus-Two statement that we had with our counterparts--
Secretary Hagel and Secretary Kerry, with their counterparts.
    So, the agreement by the Governor of Okinawa to approve the 
landfill permit does reflect a significant step forward, 
because we are now in a position where the Government of Japan 
can now begin construction on the airstrip at Camp Schwab to 
start building out what the Futenma Replacement Facility, as it 
is known in the vernacular, where that is going to be----
    Senator Cardin. But, let me give you what I----
    Mr. Helvey [continuing]. In 10 to 20 years.
    Senator Cardin. In my visit to Japan, and in my 
conversations with my colleagues on the Armed Services 
Committee and on the Appropriations Committee, it seems to me 
that we do not have a clear understanding as to the sequencing 
of appropriations in Japan and the United States to make this a 
reality. Are you confident that we have an understanding with 
the Government of Japan as to how their Parliament will be 
funding the staging and funding the new facilities that are 
necessary for this transition, consistent with the ability of 
Congress to also appropriate the funds necessary for the 
transition to Guam and Hawaii?
    Mr. Helvey. Senator, I would like to take that question for 
the record, if I could. I am going to have to do some 
additional consultations to be able to provide a fulsome 
response.

    [Editor's note.--The requested information can be found in 
the Q&A in the ``Additional Material Submitted for the Record'' 
at the end of this hearing.]

    Senator Cardin. And I appreciate that. I want to make sure 
things are accurate.
    I just think it is important that we have clear 
understandings, and there has been a reluctancy in Congress to 
do certain things as it is still unclear what is being done in 
Japan. And I think it is important that, if we are all sincere, 
we are trying to move forward with this relocation, which is 
absolutely essential, that we have a transparent and an open 
strategy with Japan as to the viability of the projects, to 
make sure that we have accurate funding dollar amounts, and 
that there is a commitment to fund it in a timely way by both 
Parliaments, in the United States and in Japan.
    Let me move forward to Korea and talk a little bit about 
the transition of authority on the troops there, as the OPCON 
is supposed to be implemented in December 2015. How are we 
doing in regards to the implementation of that commitment to 
turn over command to the Koreans?
    Mr. Helvey. Well, Senator Cardin, the transition of wartime 
operational control, which is the central point of your 
question, should sustain and enhance the alliance's combined 
defense posture and capabilities, support both the alliance's 
bilateral defense priorities and its future development. The 
United States and the Republic of Korea remain committed to 
making the preparations necessary to transfer wartime 
operational control on the timeline that was established in the 
Strategic Alliance 2015 Plan, which would be December 2015.
    OPCON transition, however, has always been conditions-
based, and we continue to assess and review the security 
situation on the Korean Peninsula, in the context of 
implementation of the Strategic Alliance 2015 Plan. One of the 
key outcomes from the security consultative meeting last 
October between Secretary Hagel and Minister Kim was the 
establishment of an OPCON Working Group, where the United 
States and the Republic of Korea are examining where we are, in 
terms of both sides, the United States and the Republic of 
Korea, in meeting the timelines and the commitments under the 
Strategic Alliance 2015 Plan, in light of a request from the 
Republic of Korea to look at the conditions for transition of 
operational control.
    So, we are in the process of doing that. It is something 
that we do regularly through our alliance. We are meeting the 
timelines now, but we just want to make sure that we are taking 
a look at where we are going to be going, in the context of the 
changing security environment, particularly in North Korea.
    Senator Cardin. Mr. Russel, moving to the relationship 
between the Republic of Korea and North Korea, and the regional 
concerns on the activities within North Korea. Obviously what 
gets most of the attention is their nuclear activities, but 
there is also the erratic behavior of the government, the way 
that they treat their own people, and gross violations of human 
rights, the failure to have an economy that can adequately take 
care of the needs of their own people, all of which have 
presented challenges for the international community.
    It appears like there is a dialogue taking place between 
the Republic of Korea and North Korea. Of course, we had the 
six-party talks. Can you just update us as to the confidence 
level that we have a method for trying to resolve issues in 
North Korea?
    Mr. Russel. Yes. Thank you, Mr. Chairman.
    First and foremost, our approach to North Korea is 
predicated on very, very close coordination, in the first 
instance, with our ROK ally, as well as with Japan, and then 
broader coordination with the other partners in the six-party 
process and with the international community. The ability of 
the United States to maintain a united front, and the 
insistence that North Korea has to come into compliance with 
its international obligation to begin denuclearizing, is one of 
the things that has served as a bulwark against now familiar 
North Korean tactics.
    One familiar cycle we have seen in North Korean behavior is 
generating regional tension through provocative steps and 
threatening behavior, only to follow that with a so-called 
``charm offensive,'' in the hopes that they will be able to 
elicit concessions and substantive rewards from the United 
States, from the ROK, and from the international community. 
They have failed in that effort.
    The agreement by North Korea, belatedly, to move forward 
with the exchange of elderly family members separated by the 
Korean war, bringing together aged South and North Koreans who 
have not seen each other, in some cases, for many decades, was 
a welcome step, but it is a step that we attribute to the Park 
administration's firm and principled-based approach to dealing 
with North Korea.
    Like the United States, the Government of the Republic of 
Korea insists that North Korea must take irreversible steps to 
begin coming into compliance on its denuclearization 
obligations, that humanitarian actions can be pursued, and the 
ROK has taken some modest steps in that direction, but there 
will be no progress until and unless North Korea accepts that 
its nuclear program and its ballistic missile program are not 
acceptable to the international community, and directly at odds 
with North Korea's own stated desire for greater security, as 
well as economic assistance, if not integration.
    Based on this firm set of principles and close coordination 
between the United States and our allies and our partners, we 
have denied North Korea consistently the benefits that it had 
previously achieved through its misbehavior and through its 
threats.
    On human rights, the United States has strongly supported 
the Human Rights Council's decision to form a Commission of 
Inquiry, which recently issued a report and will be discussed 
next month--or later this month, in Geneva, by the Human Rights 
Council. That report found a truly appalling set of 
circumstances in North Korea, and was able to document many of 
the very, very troubling practices there.
    The United States will continue to work with the 
international community and with our partners, including the 
ROK, to speak out and to shine a light on the problems of human 
rights in North Korea, even as we focus intently on the 
requirement that North Korea take steps to denuclearize and to 
end its illegal ballistic missile program.
    Senator Cardin. Thank you for that answer.
    Is there anything new to report in regards to our efforts 
to improve the relationship between our two close allies, the 
Republic of Korea and Japan? Have there been any new 
initiatives? There seems to be some provocative activities; 
there were provocative activities last year. Do we see any good 
will that we might be able to foster a better relationship 
between those two countries?
    Mr. Russel. Well, Mr. Chairman, it is very much in the 
interests of the United States, and therefore it is very much a 
diplomatic priority for the United States, that the friction 
and the tension between these two extraordinarily close friends 
and allies of the United States be reduced, and be reduced 
quickly. Both Japan and the Republic of Korea need to make 
respective efforts to help create a more conducive and positive 
climate. They are both dealing with the legacy of very, very 
sensitive and very difficult issues, historical issues from the 
20th century. We have maintained a direct and candid dialogue 
with the political and the governmental on the opinion leaders 
in both countries. We continue to stress the need for prudence 
and for restraint for all parties to take steps that will 
promote healing. These legacy issues cannot be solved by any 
one party, alone. But, all parties can contribute to a reversal 
of the current atmosphere and the creation of a positive trend.
    Both the Republic of Korea and Japan are healthy, stable 
democracies. They are both important free-market economies. 
They, themselves, have close cultural ties and roots in shared 
values. Moreover, both the Republic of Korea and Japan have a 
huge strategic interest in bilateral, as well as trilateral, 
cooperation, including and particularly because of the threat 
posed by North Korea.
    The United States and Japan have, I think, set a positive 
model of how two countries can move from the enmity of war to 
reconciliation and an extraordinary partnership, friendship, 
and alliance. That is a model that I hope can increasingly be 
emulated by other countries. It is necessary to deal with the 
sensitive issues of history to ensure that that history does 
not obstruct the ability of Japan and the Republic of Korea to 
meet the challenges of today and to fulfill the goals of 
tomorrow.
    So, the short answer, after a long introduction, Mr. 
Chairman, to your question, is, yes, the United States has both 
an interest and a role, not as a mediator, but as a friend and 
as a partner. That is a role that we are pursuing with vigor.
    Senator Cardin. Well, I think this has to be a very high 
priority. We want to see good relations with all the countries 
in that region of the world. One of my concerns is that it 
looks like China is trying to increase the wedge between Japan 
and the Republic of Korea to establish a closer relationship 
with the Republic of Korea, to the detriment of Japan. It is 
critically important that the United States, which has close 
alliances with Japan and Republic of Korea, that we use our 
relationships to improve the relationship between those two 
countries.
    In my visit last year, it was so obvious. More questions 
were asked, I think, on that subject than any other subject, 
even though the maritime security problems were huge and 
China's huge. But, these historic disputes have caused real 
challenges to the functioning relationship between two allies 
of the United States.
    With that, I thank our witnesses.
    Mr. Helvey, I just want to underscore the importance of 
trying to get on the same page on the replacements to Okinawa. 
This is an issue that is critically important to both 
countries. We support it, but we have to have the numbers that 
make sense, and we have to be on the same page with, in regards 
to our mutual commitments. So, I look forward to that 
information being made available to our committee.
    Thank you.
    We will now turn to our second panel. And we are pleased to 
have two distinguished experts on Northeast Asia. First is Dr. 
Sheila Smith, a senior fellow for Japan Studies at the Council 
on Foreign Relations. Dr. Smith currently directs the Project 
on Japan's Political Transition and the U.S.-Japan Alliance.
    And then we have Dr. Michael Auslin, a resident scholar and 
the director of Japan Studies at the American Enterprise 
Institute, AEI, where he studies Asian regional security and 
political issues. Mr. Auslin is also a biweekly columnist for 
the Wall Street Journal.
    Welcome, both of you. We look forward to your testimony. As 
I indicated earlier, your written comments will be made part of 
our committee record, and you may proceed as you wish.
    Dr. Smith.

  STATEMENT OF SHEILA SMITH, SENIOR FELLOW FOR JAPAN STUDIES, 
          COUNCIL ON FOREIGN RELATIONS, WASHINGTON, DC

    Dr. Smith. Chairman Cardin, thank you for the privilege of 
joining you today to discuss our alliances in Northeast Asia.
    Japan and the Republic of Korea are two of America's 
closest allies. Both were forged in the wake of World War II 
and at the beginning of the cold war that defined the last half 
of the 20th century. We have over 60 years of shared history in 
managing regional security in Northeast Asia. We have economic 
ties that are deepening for the pursuit of new trade agreements 
and new energy ties. And we share a common interest in the 
norms and institutions that govern international relations, 
particularly regarding the peaceful resolution of international 
disputes. These are close U.S. partnerships, with a burgeoning 
agenda of cooperation.
    Both alliances also face new sources of challenge. The 
first is the changing strategic balance in Northeast Asia. For 
over a decade now, the stability of that region has been tested 
by the proliferation ambitions of North Korea. In addition, the 
rising influence of China is reshaping the region's diplomatic, 
economic, and military relationships.
    Our bilateral relations with both Japan and South Korea are 
strong. Last fall, Secretary Hagel traveled to Seoul to mark 
the 60th anniversary of our security treaty and for the 
bilateral ROK-U.S. Security Consultative Meeting. From there, 
he traveled to Tokyo, where he was joined by Secretary Kerry 
for a Security Consultative Committee ``two-plus-two'' meeting 
with their Japanese counterparts. At both meetings, a detailed 
agenda of alliance cooperation was outlined, with very similar 
aims of strengthening deterrence and defense cooperation.
    In Japan, the Defense reforms initiated by Prime Minister 
Abe inform our revision of the U.S.-Japan Guidelines for 
Defense Cooperation. Similarly, we are building strong economic 
and energy partnerships with Japan and South Korea. The KORUS 
Trade Agreement has been a tremendous benefit to both South 
Korea and the United States, and we are working with Japan to 
complete negotiations on the Trans-Pacific Partnership.
    Energy cooperation, I believe, also strengthens our 
partnership with these Northeast Asian allies. We continue to 
discuss renewal of our civilian nuclear agreement with Seoul, 
and we have initiated new LNG projects with Japan.
    But, today our biggest challenge may be the deterioration 
of relations between Seoul and Tokyo. Memories of the past 
century continue to infuse contemporary political relations in 
Northeast Asia. And, since 2012, the Japan-ROK relationship has 
taken a turn for the worse. President Lee Myung-bak's visit to 
Dokdo, or Takeshima, as the Japanese refer to them, that 
summer, and the progress of Korean court cases inside South 
Korea over victims' claims for World War II compensation from 
Japan have called into question the foundation of postwar 
Japan-ROK diplomacy.
    Popular sentiments in both countries have gone from mutual 
respect to antagonism. Newly elected leaders in both capitals, 
President Park Geun-hye and Prime Minister Abe Shinzo, have 
failed to find a path to overcome their diplomatic 
estrangement.
    Next year will be the 50th anniversary of the Bilateral 
Peace Treaty that negotiated the basis of postwar 
reconciliation and restored diplomatic ties between these two 
U.S. allies. Without high-level dialogue, that anniversary 
could be an even more difficult moment for the relationship.
    This worsening Japan-South Korea relationship comes at a 
time of considerable change in Northeast Asia. China's rising 
economic and military influence has had a tremendous effect on 
both societies, and there, too, the postwar settlement is 
called into question. Most worrisome is the relationship 
between Japan and China, who have confronted each other in the 
waters around the Senkakus as Beijing has sought to contest 
Japan's administrative control over these remote, uninhabited 
islands. Chinese paramilitary ships continue to challenge the 
Japan Coast Guard, and in 2013 the Chinese military began to 
intimate its interest in the airspace and waters around these 
islands. The announcement, in November last year, of a new 
Chinese Air Defense Identification Zone adds another layer of 
complexity to the already dangerous tensions developing in the 
East China Sea.
    The United States must pursue three priorities in Northeast 
Asia. First, Washington must continue its crucial role in 
deterring aggression and in advocating for risk reduction in 
this increasingly crowded East China Sea maritime space. 
Second, the United States must do all that it can to encourage 
the leaders of Japan and South Korea to overcome their 
political resistance to dialogue. Washington cannot broker 
reconciliation, but must continue to point out the costs of 
continued estrangement, for regional stability as well as to 
their own security.
    Finally, the United States must continue to deepen the 
economic bonds, including energy, that sustain our relations 
with Japan and South Korea. Our own future well-being and 
security will depend upon these alliances as we navigate the 
challenges of a transforming Asia-Pacific.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Dr. Smith follows:]

               Prepared Statement of Dr. Sheila A. Smith

    U.S. alliances in Northeast Asia are critical to the success of our 
Asia strategy. These alliances are half a century old, with extensive 
agendas of economic and security cooperation. Japan and South Korea 
continue to host the bulk of our forward deployed forces in Asia, yet 
these are not just military alliances. The people of Japan and South 
Korea share our commitment to democratic values, to an open and fair 
global trading order, and to a cooperative approach to ensuring 
regional stability in a rapidly changing Asia-Pacific.
    Both Japan and South Korea have new political leaders: in December 
2012, Abe Shinzo was elected Prime Minister after his Liberal 
Democratic Party (LDP) gained a majority in Japan's Lower House of 
Parliament and Park Geun-hye was elected to a 5-year term as South 
Korea's President by a wide margin, assuming office in February 2013. 
Abe's LDP received overwhelming support in the Upper House election of 
Parliament in the July 2013, giving the conservatives a majority in 
both Houses of Parliament for the first time since 2007. Park had led 
her Saenuri Party as it maintained its majority in the April 2012 
legislative elections for the National Assembly. Thus both leaders have 
a strong electoral mandate, and will be in power for the next several 
years.
    Unfortunately, the relationship between Tokyo and Seoul has 
deteriorated significantly, making it difficult for the United States 
to deepen and expand cooperation with its allies. Where once strong 
trilateral cooperation between Washington, Seoul, and Tokyo could be 
expected across a wide range of issues, today that cooperation is less 
likely. For over a year now, the leaders of Japan and South Korea have 
not met.
                      update on u.s.-rok alliance
    The Republic of Korea continues to face an unstable and 
unpredictable regime in Pyongyang. Last fall, the United States and the 
Republic of Korea commemorated the 60th anniversary of their alliance 
and outlined plans for advancing the emerging global partnership 
between Washington and Seoul. The U.S.-ROK alliance has successfully 
deterred aggression by North Korea against the South on the Korean 
Peninsula. Washington and Seoul work closely to craft and support the 
U.N. Security Council Resolutions that seek to sanction North Korean 
proliferation. After successive incidents in 2010 involving the use of 
force by Pyongyang against the South, the U.S.-ROK alliance has 
bolstered defense cooperation and strengthened their combined defense 
posture. In March 2013, the two governments completed their ``counter 
provocation plan,'' designed to anticipate and meet any further 
military actions by the North Koreans. In addition, last fall Secretary 
of Defense Chuck Hagel and Defense Minister Kim Kwan-jin approved a 
``tailored deterrence strategy'' that would meet WMD threats from the 
North, and this includes the counter missile as well as the Korean Air 
and Missile Defense system.
    The U.S.-ROK alliance also includes a global agenda of cooperation. 
Since 2009, in accordance with the Joint Vision for the alliance, the 
United States and South Korea have set forth a broader agenda of global 
cooperation, including partnering in developing mechanisms for ensuring 
global nuclear security. South Korea hosted the second Nuclear Security 
summit in 2012. In addition, South Korea continues to expand its 
peacekeeping, post-conflict reconstruction, and disaster relief 
activities, and cooperates with the United States and others in Syria 
and Afghanistan. Future goals for the alliance include achieving the 
transition of wartime operational control (OPCON), deepening 
cooperation through their Cyber Cooperation Working Group, and 
continuing to implement base relocation and returns of U.S. Forces 
Korea (USFK).
                     update on u.s.-japan alliance
    The U.S.-Japan alliance has also confronted a new security 
challenge. Since 2012, China has begun maritime patrols of the Senkaku 
Islands in the East China Sea, challenging Japan's administrative 
control. Rising tensions, and growing popular sensitivities over the 
islands, have frozen diplomatic relations between Tokyo and Beijing, 
and the increasing paramilitary patrols have upon occasion been 
supplemented by interactions between the two militaries.
    The United States has direct interests in this growing tension. As 
Japan's treaty ally, the United States has increased its defense 
cooperation with Tokyo (such as the deployment of F-22s in Okinawa and 
expanded training between U.S. and Japanese forces, including 
amphibious landing operations) to deter miscalculation, and has 
conveyed to Beijing in repeated high-level meetings (including between 
President Barack Obama and Chinese President Xi Jinping last year) the 
U.S. interest in a peaceful resolution of China's maritime disputes 
with its neighbors. China's announcement in November 2013 of a new Air 
Defense Identification Zone (ADIZ) in the East China Sea, however, puts 
new pressure on Japan's air defenses (as well as South Korea's) and 
exacerbates tensions over the Senkaku Islands.
    The U.S.-Japan alliance has also begun an important set of 
revisions as Japan has initiated its own defense reforms. In October, 
Secretary of State John Kerry and Secretary of Defense Hagel traveled 
to Tokyo for a Security Consultative Committee (2+2) meeting with 
Foreign Minister Fumio Kishida and Defense Minister Itsunori Onodera. 
The highlights of that meeting included an agreement to revise the 
U.S.-Japan Defense Cooperation Guidelines to enhance the alliance 
deterrent (especially with intelligence, surveillance and 
reconnaissance (ISR) capabilities). A review of roles, missions, and 
capabilities will supplement the discussion of the Guidelines, as will 
a review in Japan of the government's interpretation of the 
constitution with regard to the right of collective self-defense.
    Finally, Japan's economic policy reforms, dubbed ``Abenomics,'' 
have had some initial success in raising expectations for an improved 
economic performance. A combination of fiscal stimulus and a new 
emphasis on monetary policy combined to stimulate greater optimism in 
Japan's economic future. Breaking the deflationary mindset is seen as 
the prerequisite to greater investment and consumer spending. Early 
signs of traction in 2013 were apparent, but much will depend on the 
Abe government's ability to tackle the more politically difficult 
economic restructuring Japan needs to truly turn its economy around. 
Japan's decision last year to join the Trans-Pacific Partnership (TPP) 
is widely seen as one of Prime Minister Abe's best policy tools for 
opening the market and restoring economic competitiveness.
                          challenges for 2014
    The United States has several challenges ahead in managing its 
alliance relations in Northeast Asia. First, both alliances will need 
continued attention to defense cooperation. Regional security trends 
make alliance readiness and strategic adjustments to the alliance 
deterrent necessary. The United States and Japan will revise their 
Defense Cooperation Guidelines to consider new missions and upgrade 
capabilities based on their strategic assessment of regional military 
balance. Tensions in the East China Sea and the continued concern over 
the situation on the Korean Peninsula will require continued attention 
to crisis management provisions and to reassess the alliance readiness. 
Force posture adjustment continues to be necessary, as are upgrades in 
alliance deterrence (such as the ongoing improvements in ISR and 
ballistic missile defense capabilities). Japan's own reorientation of 
its defense posture southward will also shape alliance cooperation. In 
the U.S.-ROK alliance, the most important consultations continue to be 
over whether to transition OPCON from the USFK to the Korean military. 
The nature and timing of this transfer, of course, will be conditions 
based, and should be undertaken in order to ensure a seamless combined 
deterrent force. The potential for provocations from the North cannot 
be underestimated, especially near the Northern Limit Line (NLL), and 
close allied consultations on how to anticipate and respond to such 
provocations remains a high priority. Finally, the potential for 
intermediate range missile and/or nuclear testing remains, and the 
continued ability to deter (including extended deterrence) is crucial 
to regional stability.
    Second, economic cooperation continues to be an important component 
in our alliance cooperation. The TPP negotiations are a critical 
component of U.S.-Japan cooperation. Recent slowing of progress rests 
largely on two requirements. The first is that the lack of trade 
promotion authority prompts concerns over the ability of the Obama 
administration to gain congressional approval of a final agreement. 
Second, the desire for a high standards agreement limits the U.S. 
willingness for compromise, particularly on Japanese agriculture. 
Domestic politics in both countries could undercut the U.S.-Japan 
cooperation that to date had enabled progress on this important 
economic security initiative. The United States and South Korea now 
enjoy the benefits of their free trade agreement (KORUS), approved by 
the U.S. Congress and the Korean Assembly at the end of 2011. 
Differences remain over some sectors, but overall trade has improved.
    Finally, energy cooperation will also be on the alliance agenda 
this year, and with both allies, energy has a strategic impact. The 
United States and South Korea will continue to discuss their civilian 
nuclear cooperation, and expectations remain high that a new agreement 
can be reached. Additional time was granted by the Senate in January 
2014 to allow a more careful discussion. Japan too has new energy needs 
after its triple disasters in 2011 changed the national consensus on 
the country's overall energy mix. Exports of U.S. liquefied natural gas 
(LNG) and potentially other energy resources to Japan should be 
considered, as they will transform Japan's dependence on Russia and the 
Middle East for the bulk of its imported energy needs.
             bilateral cooperation between tokyo and seoul
    Perhaps the thorniest issue for U.S. foreign policy in Northeast 
Asia continues to be the difficult relations between Seoul and Tokyo. 
Since coming into office, President Park and Prime Minister Abe have 
failed to organize a high-level summit meeting, and as a result, 
domestic sentiments within each country have become increasingly 
antagonistic. Several factors account for the deterioration in this 
important bilateral relationship. First, the continuing sensitivity 
particularly in South Korea to issues related to historical memory 
impedes closer security cooperation. In 2012, the two nations were 
close to concluding two important security agreements, an information-
sharing agreement and an acquisitions and cross-servicing agrement 
(ACSA) that would have allowed cooperation in case of a contingency on 
the peninsula. Domestic politics in South Korea derailed this effort, 
however.
    Second, the visit in 2012 of former Korean President Lee Myung-bak 
to the island of Dokdo (Takeshima for the Japanese) inflamed popular 
sentiment in Japan, as did President Lee's statements on Japan's lack 
of remorse for its colonization of the Korean Peninsula. The change of 
leadership in Seoul only deepened the rift as President Park continues 
to advocate to others the need for Japan to reflect on its past and 
take a more ``correct understanding of history.'' Pressures within 
South Korea, largely led by court cases appealing for greater South 
Korean Government activism to gain new compensation for victims of 
Japanese oppression during World War II, continue to make this a 
contentious issue, and sentiment in Japan toward South Korea has 
worsened considerably. The 50th anniversary of the bilateral peace 
treaty between Japan and South Korea next year will focus attention on 
this sensitive issue of remorse and compensation for WWII.
    Finally, the rise of China is deepening the difficulties in the 
Japan-South Korea relationship. President Park began her time in office 
by visiting Washington and Beijing, but ignoring South Korea's 
longstanding diplomatic ties to Tokyo. Moreover, in high-level meetings 
with China, South Korean officials join with China to chastise Japan on 
its past history, creating the impression that Seoul and Beijing seek 
to isolate Japan diplomatically. While the historical legacy of World 
War II has long been a source of pain and friction in the diplomatic 
relations between Japan and South Korea, the growing synchronization of 
territorial disputes and criticism of Japanese leaders' positions on 
history between Seoul and Beijing make it difficult for Tokyo to 
manage. Popular sentiments in Tokyo have become very sensitive to this 
notion that Japan is the target of attack by its neighbors, just as 
popular sentiments in Seoul have become very sensitive to Japanese 
revisionist statements on the conflicts of the 20th century.
    The U.S. role in these tensions is a difficult one. While U.S. 
interests are not served by the continuing estrangement between our two 
closest allies in Asia, Washington cannot broker a deal on the complex 
issue of historical memory. For reconciliation to occur, it must be 
undertaken directly by Tokyo and Seoul. Nonetheless, the United States 
must continue to urge President Park and Prime Minister Abe to take 
steps toward a concrete discussion on reconciliation, and to outline to 
both leaders the costs of their continued contention. Without 
leadership by both Park and Abe, this dispute could become much more 
difficult to resolve, and could undermine their ability to manage their 
own country's security. A comprehensive review of the path to restoring 
strong political and economic ties must be undertaken, and no 
preconditions to dialogue should be set.
    The lost opportunities of this continued friction are real for the 
United States, and for the region. Close trilateral cooperation on 
North Korea is vital in case of a crisis or even worse, a conflict. 
U.S. access to bases in Japan is imperative to our ability to defend 
South Korea. Korean cooperation with Japan will be vital to ensuring 
the safety of Japanese citizens on the peninsula and in deterring North 
Korean aggression against Japan. Likewise, maritime cooperation between 
Seoul and Tokyo is essential for nonproliferation activities, as well 
as broader stability of East China Sea. Japan and Korea have a long 
history of coast guard and air defense cooperation, and should see this 
as an added stabilizer for the East China Sea, especially after the 
ADIZ. Furthermore, the ability of Tokyo and Seoul to cooperate in and 
around the East China Sea should become the basis for encouraging 
Chinese participation in similar risk reduction mechanisms, perhaps 
through the trilateral China, Japan, South Korea summitry. Finally, the 
frictions over their postwar settlement ultimately do affect the United 
States. More and more, U.S. citizens are raising questions about the 
historical disputes between Japan and South Korea, including the issue 
of compensation for the system of sexual slavery during WWII, and 
wondering about the rising nationalist impulses of both countries. 
There is plenty of room for nongovernmental discussions between U.S. 
and regional historians on some of these issues, and for U.S. 
engagement in a broader Asian discussion of historical memory. Our own 
leadership in demonstrating the importance of historical reconciliation 
has been a source of strengthening our relations with both countries. 
In both Korea and Japan, we must continue to emphasize the importance 
of reconciliation.
                         what more can be done?
    President Obama's visit to both countries in April offers an 
opportunity to highlight the strengths not only of our bilateral ties, 
but also of the value of our trilateral partnership for regional 
security and prosperity. Elected representatives in Congress, too, 
should take every opportunity to demonstrate the importance of these 
alliances to the United States. Personal ties with the leaders of Japan 
and South Korea will allow for a more intimate dialogue on issues of 
reconciliation, and will allow for greater understanding of the 
changing security and economic concerns in the region. The United 
States has a tremendous stake in Asia, and our partnerships with both 
of these vibrant democracies and dynamic economies are indispensable to 
our own success. With Seoul and Tokyo, we have shared interests in a 
broad agenda of cooperation across the Asia-Pacific: freedom of 
navigation, the rule of law, an open and fair international economy, 
and the right of self-determination and territorial integrity. Finally, 
we must continue to invest in the next generation of alliance leaders, 
and the United States must continue to lean forward in funding, 
educating, and sending abroad our very best young minds. Building the 
personal relationships, and learning first hand about these two 
accomplished cultures, is one of the best means of ensuring the health 
of our relationships with Japan and South Korea in the generations 
ahead.

    Senator Cardin. Thank you, Dr. Smith.
    Dr. Auslin.

  STATEMENT OF MICHAEL AUSLIN, RESIDENT SCHOLAR, DIRECTOR OF 
  JAPAN STUDIES, AMERICAN ENTERPRISE INSTITUTE, WASHINGTON, DC

    Dr. Auslin. Mr. Chairman, thank you for the opportunity to 
come talk to you today about the status and trajectories of our 
alliances in Northeast Asia.
    This hearing is being held at a particularly important 
time, for, as the United States continues a broad drawdown in 
military forces, the security trendline in Asia is worsening, 
not improving. Security in Asia remains based on our alliances 
which, for the past half century, have been focused on a 
handful of key nations, Japan and South Korea preeminent among 
them. As the committee understands, strengthening these 
alliances is one of the surest ways to maintain stability in 
the Asia-Pacific region, preserve U.S. influence, and help 
promote a future of greater freedom and prosperity for half our 
world.
    You asked about the current status of the bilateral 
alliances and their progress. Regarding Japan, I would argue 
that we are witnessing a divergence between the politics and 
the policy of the United States-Japan alliance. While 
Washington applauds many of Prime Minister Shinzo Abe's 
measures to strengthen Japan's security and fulfill 
longstanding agreements with the United States, there is 
growing tension over perceptions of his approach to historical 
issues, such as the December visit to the controversial 
Yasukuni Shrine. While I argue that fears of the dangers of Mr. 
Abe's nationalism are overblown, we should be worried about the 
potential political divergence between Washington and Tokyo 
over the coming year.
    As has been noted, South Korea and Washington continue to 
have close ties. In January 2014, we came to a new 5-year 
special measures agreement, under which Seoul will raise host-
nation support payments for U.S. forces. However, one 
continuing source of uncertainty, which you have already 
highlighted, in this alliance is the so-called OPCON Transfer 
of Wartime Command of United States and South Korean Forces, 
which has already been delayed twice, and is most likely to be 
delayed after 2015.
    The challenges we face this year, I think are threefold. 
The first, we have discussed several times here, is poor Japan-
ROK relations. America's two closest allies barely speak to 
each other, and the tensions are at their highest in decades. 
While I have not been privy to what we have done to try to 
ameliorate that, Washington, I believe, should be doing much 
more behind closed doors in a very frank way to try and bridge 
the gap and stress common interests between our two allies.
    The second challenge, also discussed here earlier, is North 
Korea, which, under Kim Jong-un, has become even more of a 
wildcard than before. I believe the administration does not 
appear to have any current initiatives to deal with the Kim 
regime. And, as long as there is a stalemate between North 
Korea and the rest of the world, Pyongyang wins.
    In China, President Xi Jinping's first year in power saw 
new and destabilizing acts, such as the establishment of the 
East China Sea Air Defense Identification Zone. Having 
consolidated his power in his first year, he now has 9 full 
years to push forward, not only his program for domestic 
economic reform, which we should welcome, but also his national 
security objectives, which increasingly seem to be at odds with 
a stable Asia-Pacific region and dismissive of the Obama 
administration's rebalance.
    There are areas for bilateral and trilateral cooperation in 
the coming year. Bilaterally with Japan, I agree with Dr. Smith 
that Washington must focus on preserving stability around the 
disputed Senkaku Islands. A greater American presence in the 
waters around the islands can help prevent an accident that 
causes conflict.
    The economic basis of the United States-Japan relationship 
surely can be strengthened by concluding the Trans-Pacific 
Partnership talks, but we must recognize there remains a 
significant gulf between Washington and Tokyo, and the apparent 
death of fast-track trade promotion authority in the Senate 
means that any TPP agreement would find it difficult to get 
ratified.
    With Seoul, we should be working on setting a realistic 
timeline for OPCON transfer, and also thinking of new 
initiatives for dealing with North Korea, such as stronger 
financial measures aimed at the Kim regime.
    Many of these initiatives can be done in a trilateral 
fashion, such as greater cooperation and consultation on the 
ADIZ, on North Korea, and on building up missile defense. An 
innovative approach would be to try and expand the limited 
trilateral military exercises, which we currently conduct, or 
exploring limited joint training. Another idea is to consider a 
trilateral vision statement on the region's opportunities and 
challenges.
    The Obama administration's rebalance has helped the 
American Government and public begin thinking about our 
interests in the post-Iraq and -Afghanistan world. Yet, the 
administration has also undercut its own policy, in two ways: 
firstly, through defense cuts that make it more difficult to 
maintain our presence abroad and call into question our long-
term credibility, and secondly, by a hesitant approach to 
China's latest provocations that raise questions about our will 
to oppose their destabilizing actions. Washington must assure 
its friends and partners that it will not let the balance of 
power in Asia shift in favor of those who seek to use might to 
achieve their objectives. An Asia in which coercion is 
regularly employed cannot be an Asia that remains peaceful and 
prosperous in the long run.
    In conclusion, there are three things that the 
administration, I think, should focus on. First is to clarify 
what its actual goals are in Asia, and make those goals clear 
to our allies and to those with whom we must deal. Second, 
Congress and the administration must ensure that our projected 
defense cuts do not further erode our readiness or our presence 
in Asia. And third, I argue, it is time for a new interagency 
strategic vision statement on Asia that lays out our interests 
and strategy. The result of such an approach would be stronger, 
liberal alliances and, quite likely, a region that is more 
stable and prosperous.
    Thank you and I look forward to your questions.
    [The prepared statement of Dr. Auslin follows:]

              Prepared Statement of Dr. Michael R. Auslin

    Mr. Chairman, Ranking Member Rubio, members of the committee, thank 
you for the opportunity to come talk to you today about the status and 
trajectories of our alliances in Northeast Asia. This hearing is being 
held at a particularly important time, as the United States enters the 
final phase of winding down its combat role in Afghanistan and as the 
U.S. public begins looking forward to a future less focused on the 
Middle East. At the same time, several years of uncertainty regarding 
the U.S. defense budget are now being replaced by a better 
understanding of how our military will resize and reshape itself for 
the coming decade.
    That said, the choices we are making as to our future foreign and 
security policies obviously do not take place in a vacuum. Other 
countries have their say as to how the world will look, and in part the 
future judgment on the wisdom of our likely course will be based on how 
other countries react to our policies. Nowhere is this more true than 
in Asia, where the world continues to watch, with equal parts envy and 
apprehension, the rise of China.
    China continues to present a unique policy challenge to the United 
States. Our economic interdependence all but mandates close and smooth 
working relations at the public and private level; yet our political 
and security competition seems to grow without pause. This is the same 
dynamic faced by many of our allies and friends in Asia, to whom of 
course, the Janus-faced aspect of today's China is of enduring concern.
    While the United States has broad-based economic, diplomatic, 
cultural, and social relationships with the nations of Asia, this 
hearing rightly seeks to understand the strengths and weaknesses of our 
alliance structure in Northeast Asia. Our alliances have been based for 
the past half-century on significant security commitments to a handful 
of key nations, Japan and South Korea preeminent among them. Because of 
this, China's activities in the region, as well as the ongoing North 
Korean nuclear and missile challenge, are the major influences on our 
alliance relations with Tokyo and Seoul.
    Before discussing these two separately, it is important to note 
that our allies and partners in Asia are well aware of, and concerned 
about, projected drawdowns in the U.S. military. They are keenly 
attuned to how far the continental United States is from the 
flashpoints of Asia, such as the Korean Peninsula or the South China 
Sea. They read the headlines about our Navy shrinking to its smallest 
size since World War I and that the Air Force will shed hundreds of 
planes over the coming years. They find it hard to square such hard 
numbers with the constant statements of the Obama administration that 
it is rebalancing to the Asia-Pacific region. They worry that 
assurances by the United States Government that budget cuts at home 
will not affect the U.S. presence in Asia are mere rhetoric.
    Indeed, both governments and publics in Asia are aware that U.S. 
military activity throughout the region is declining. Last year, 
Admiral Samuel Locklear, Commander of U.S. Pacific Command, testified 
before Congress that his travel budget had been cut by half. Similarly, 
the Pentagon has been forced to reduce military-to-military exchanges, 
such as postponing the Pacific Air Chiefs Symposium or canceling 
exercises run by Pacific Air Forces. General Hawk Carlisle, Commander 
of Pacific Air Forces, has been just one of the senior military leaders 
publicly to state his concern that resources have not followed the 
commitment to rebalance.
    By raising expectations throughout the region that the United 
States would be more involved in Asian issues, we have created a 
dangerous gap with our inaction. While Secretary of State Kerry focused 
on climate change during his visit to China, South Korea, and Indonesia 
just 2 weeks ago, many of the nations of the region are far more 
concerned about the growing risk of conflict and what must be 
considered coercive behavior by China. Just last week, our ally the 
Philippines protested the Chinese use of water cannons by patrol boats 
on Philippine fishermen around the disputed Scarborough Shoal in the 
South China Sea. Asia's civilian airliners, except for Japan, are all 
complying with Beijing's intrusive demands for identification of 
peaceful flights over the East China Sea through China's new and 
unprecedented air defense identification zone (ADIZ). Japan continues 
to respond to regular incursions by Chinese vessels into the waters 
around the Senkaku Islands.
    The nations of Asia watch very carefully Washington's hesitation 
and desire to avoid confronting China. They get clear messages from our 
actions that they must expect to deal with China on their own. They 
already perceive a shift in the balance of power, and we must recognize 
that at some point we will be seen as a paper tiger, whose commitments 
are not backed up by commensurate national will. Meanwhile, the 
trendline in Asia is worsening, not improving, making our lack of 
response all the more noticeable.
    That said, our country retains a significant amount of influence in 
the Asia-Pacific region. This is due in no small part to the 325,000 
men and women of U.S. Pacific Command, many of whom are forward 
deployed or on regular visits throughout the region. Our half-century 
old alliance structure also provides us with unique working 
relationships and the opportunity to remain involved with a core group 
of countries which themselves play diverse roles in Asia. As this 
committee understand, strengthening these alliances is one of the 
surest ways to help maintain stability in the Asia-Pacific region, 
preserve U.S. influence, and help promote a future of greater freedom 
and prosperity for half our world.
   current status of bilateral alliances and progress in recent years
    Today, our bilateral alliances reflect the changes rippling through 
Asia as well as constraints here in the United States. To begin with 
Japan, I would argue that we are witnessing a divergence between the 
``politics'' and the ``policy'' of the U.S.-Japan alliance. We are 
still in a delicate period that began in 2009, when the then-ruling 
Democratic Party of Japan (DPJ) upended the relationship by reopening 
the question of realigning U.S. forces in Japan. The core of the 2006 
agreement that the DPJ decided to relitigate, so to speak, was the 
proposal to move Marine Corps Air Station Futenma out of its crowded 
urban location and relocate it to the less-populated northern part of 
Okinawa.
    Fast-forward 5 years later and current Prime Minister Shinzo Abe, 
who resigned his position back in 2007, has moved to push the original 
agreement ahead and complete the Futenma Relocation Facility in Nago 
City. In addition, Mr. Abe has signaled his intention to reinterpret 
Japan's ban on exercising collective self-defense, which is something 
the United States has long wanted. He has confirmed his predecessor's 
decision to buy the F-35 Joint Strike Fighter and to loosen Japan's 
restrictions on arms exports. Much of this is codified in Tokyo's 
first-ever national security strategy. Just as significantly, 
Washington and Tokyo have agreed to revise the 1997 Mutual Defense 
Guidelines by the end of 2014 to update the alliance for the 21st 
century, including such new areas as the military use of space and 
cyber space. From this perspective, the policy of the U.S.-Japan 
alliance is moving in the right direction to respond to the new 
challenges it faces.
    Yet, if the bilateral relationship is looked at from a ``politics'' 
perspective, Tokyo and Washington have moved from disagreement over 
policy to political tensions over perceptions of Prime Minister Abe's 
approach to historical issues. His December visit to the controversial 
Yasukuni Shrine resulted in a rare public reproach from the U.S. 
Embassy in Tokyo and strong condemnations by Beijing and Seoul. 
Statements by his appointees to Japan's public broadcaster have been 
criticized for their attempts to reinterpret Japan's wartime past. 
Fears that Prime Minister Abe is thinking of backing away from previous 
governments' statements on war-era comfort women have raised the ire of 
groups both in Asia and abroad. While I would argue that the fears of 
Mr. Abe's nationalism are overblown, we should be worried about the 
potential political divergence between Washington and Tokyo over the 
coming year.
    However, whereas Japan and the United States continue to have 
difficulties in their relationship, the ties between Washington and 
Seoul remain extremely close. President Obama crafted an unusually 
tight relationship with former South Korean President Lee Myung-bak, 
and has continued the trend with current President Park Guen-hye. 
Uncomfortably for Tokyo, Presidents Obama and Park share similar 
sentiments regarding Prime Minister Abe's perceived historical 
revisionism. In terms of the U.S.-ROK working relationship, in January 
2014, the United States and South Korea came to a new 5-year Special 
Measures Agreement (SMA), under which Seoul will raise its host nation 
support payments for U.S. forces in Korea by nearly 6 percent, 
increasing spending to around $870 million per year.
    One continuing source of uncertainty in the alliance is the so-
called ``operational control'' (OPCON) transfer of wartime command of 
U.S. and South Korean forces. Originally scheduled for 2007, it has 
been delayed twice at the request of the South Koreans, and is now 
planned for 2015, though that date, too, is likely to be pushed back. 
While our combined command structure in South Korea has resulted in an 
extraordinarily close training and working relationship between the two 
militaries, Seoul's inability to successfully develop the capabilities 
needed to lead military operations in wartime is a source of concern.
    With both Seoul and Tokyo modernizing their militaries, Washington 
can look forward to a future with ever more capable allies. Both 
countries are likely to purchase the F-35 fighter and each has 
ballistic missile defense capabilities, such as modern Aegis-equipped 
guided missile cruisers. Each also has been the target of cyber 
attacks, and both are thus focused on increasing their cyber defense 
capabilities.
    One major difficulty for the United States in Asia is the poor 
state of bilateral relations between Japan and South Korea. America's 
two closest allies barely speak to each other, and tensions are at 
their highest in decades. Part of this is due to the historical issue I 
noted above, but it also derives from the continuing dispute over the 
Takeshima/Dokdo Islands in the Sea of Japan (terminology over this body 
of water was settled by the State Department in 2012). The lack of 
trust and bitter feelings between the two countries makes it difficult 
to optimize the U.S. presence in Northeast Asia. Instead of having two 
allies working closely together, U.S. military planners must conduct 
most of their operations on two bilateral tracks. Given that the common 
threat from North Korea, and now antagonistic behavior from China, such 
as the ADIZ, affects both, Tokyo and Seoul would be well advised to put 
aside some of their differences and embrace their similarities. Sadly, 
there seems no prospect of this happening anytime in the near future.
Challenges for 2014
    The challenges we face in our Northeast Asian bilateral alliances 
this year are threefold: first, the poor state of Japan-ROK relations; 
second, North Korea; and third, Chinese provocations. This list has 
been steady for quite some time, and is unlikely to change soon.
    I have already briefly discussed the tensions in the Japan-ROK 
relationship, but it is worth mentioning here that, if anything, ties 
seem to be getting worse. Despite their deep economic links, and their 
shared liberal values such as rule law, freedom of the press, and the 
like, they find the tensions between them at historically high levels. 
President Park appears to desire to draw closer to China at Japan's 
expense, and has steadfastly refused to meet Prime Minister Abe. She 
has taken the opportunity of visits by senior American officials, such 
as Vice President Biden, to publicly criticize Japan. For their part, 
leading Japanese now openly talk about ``Seoul fatigue,'' and a growing 
resentment against President Park's refusal to reciprocate to Japanese 
outreach. This is a serious state of affairs, and while the United 
States cannot make the two nations end their feud, Washington should be 
doing much more behind closed doors to make clear that our patience is 
not infinite, and that we cannot be as effective as we want to be if we 
cannot work in a trilateral fashion with our two most important allies 
in Asia.
    The second major challenge this year is the unending crisis that is 
North Korea. It is disheartening to say that we currently know even 
less about what is happening inside Pyongyang than we did during the 
rule of the late Kim Jong-il. Since executing his uncle late last year, 
Kim Jong-un has become even more of a wildcard and enigma than his 
predecessors. By continuing his family's long-term pursuit of nuclear 
weapons and ballistic missile technology, he has dashed the hopes of 
some who saw in him an incipient reformer, partial to Disney 
characters. We no longer have confidence that China retains its 
traditional influence over the Kim family, as tenuous as that may have 
been, nor are we any better at anticipating Pyongyang's next 
provocative act.
    The six-party talks, designed to solve the nuclear crisis, have 
been stalled since 2008, and the Obama administration's one attempt at 
a deal, the 2012 Leap Day Agreement, was broken by the Kim regime just 
months after its signing. The administration does not appear to have 
any current initiatives to deal with North Korea, and U.N. sanctions 
continue to be undercut by China. As long as there is a stalemate 
between North Korea and the rest of the world, Pyongyang wins. Even the 
devastating U.N. report detailing human rights abuses and the crimes 
against humanity that are regularly perpetrated by Pyongyang seems to 
have had little effect on galvanizing some type of approach to put more 
pressure on this heinous regime. Moreover, the longer America waits and 
watches developments in the country, the more competent North Korea 
becomes in its nuclear and missile programs.
    Nor is there much reason to be confident about the trajectory of 
China. Unlike his immediate predecessors, President Xi Jinping has 
consolidated his power in his first year in office. He appears to have 
better control over the military than former President Hu Jintao ever 
did, and has streamlined his country's national security decisionmaking 
process. He now has 9 full years to push forward not only his program 
for domestic economic reform, which the United States should welcome, 
but also his national security objectives, which increasingly seem to 
be at odds with a stable Asia-Pacific region.
    President Xi's first year saw new and destabilizing acts, such as 
the establishment of the East China Sea air defense identification 
zone. Provocations over the Senkakus also increased, with reports of 
Chinese fighter jets being sent near the area and an instance of a 
Chinese naval vessel locking its firing radar on a Japanese Maritime 
Self-Defense ship. If these are any indications to go by, President Xi 
is comfortable pushing the boundaries of provocative behavior. That is 
the reason the trendline in Asia is negative, and is not improving 
despite regular high-level U.S.-Chinese interaction, such as the 
Sunnylands summit between Presidents Obama and Xi last year and Vice 
President Biden's visit to Beijing last December.
    It appears that the Chinese Government has calculated that it can 
continue its assertive, even coercive, actions in the face of America's 
protestations that it is rebalancing to the Pacific. Tensions are 
running high enough in Northeast Asia to cause Prime Minister Abe to 
remark at Davos earlier this year that Sino-Japanese relations are in a 
pre-1914 stage. As of now, it does not seem that Washington has come up 
with a successful policy that can encourage Beijing to act in a 
constructive manner on security issues, while continuing its 
integration into the world economy. Not surprisingly, many believe this 
is the greatest foreign policy challenge our country will face in the 
coming generation.
Areas for bilateral and trilateral cooperation in 2014
    Given the challenges in Northeast Asia faced by us and by our 
allies Japan and South Korea, there are important areas of cooperation 
that Washington can explore. Bilaterally with Japan, Washington should 
work to clarify how it can help preserve stability around the disputed 
Senkaku islands, including in the air domain. While war between Japan 
and China over the Senkakus is a remote possibility, there is a much 
higher likelihood that an accident could cause a true crisis, and 
perhaps even limited conflict. Although the U.S. Government has chosen 
not to take a position on the sovereignty claims by Japan and China, it 
recognizes Japan's longstanding administration of the islands. Thus, 
showing support for Japan through a greater American presence in the 
immediate waters around the islands does not seem like a provocation on 
our part.
    In addition, continuing expanded military exercises between U.S. 
and Japanese forces, such as last month's Iron Fist exercise in 
California with U.S. Marines and Japanese Ground Self-Defense Force 
units, will help the Japanese military become a more capable force and 
more credible in its new focus on protecting Japan's southwestern 
islands from threat. There is also room for more cooperation between 
the U.S. Air Force and Japan Air Self-Defense Force in refusing to 
recognize China's ADIZ over the East China Sea. Such activities have a 
clear diplomatic component, as well, and can serve to promote a clear 
vision of U.S. engagement in the region.
    Finally, the economic basis of the U.S.-Japan relationship can be 
strengthened by a timely conclusion of the Trans-Pacific Partnership 
talks. Unfortunately, the recent round of negotiations in Singapore 
showed that there remains a significant gulf between Washington and 
Tokyo on import tariffs, especially for agricultural goods. On top of 
that, the apparent death of ``fast track'' Trade Promotion Authority in 
the Senate means that any TPP agreement would find it difficult to get 
ratified. There are also reports that foreign negotiators are hesitant 
to make any agreement if they cannot be assured of fast track status in 
the U.S. Senate. The Obama administration must push both at home and in 
Tokyo to better sell the benefits of a high-standards free trade 
agreement.
    Washington's interest in North Korean denuclearization means that 
2014 should be a year of new initiatives with Seoul. To let another 12 
months go by without any new approach to pressuring North Korea means 
that Kim Jong-un will further strengthen himself. Recommitting to 
financial sanctions against the Kim family and its lieutenants may be 
one way of bringing them back to the table, but the State Department 
must work with Seoul and Tokyo to have a united front in the face of 
Chinese opposition. On the security side of the U.S.-ROK alliance, 
clarifying Seoul's readiness for OPCON transfer will help remove future 
uncertainty. Working, as well, to improve South Korea's ballistic 
missile defense capability can provide some assurance that threats from 
the North can be answered.
    Most of these initiatives could be done in a trilateral fashion, 
since Japan and South Korea face similar security challenges. There is, 
however, little to no likelihood of Seoul and Tokyo agreeing to work 
more closely on their own. Nonetheless, the Obama administration should 
push firmly for more trilateral cooperation and consultation on the 
ADIZ, on North Korea, and on building up missile defense capabilities. 
Blunt talk about the costs of their diplomatic freeze may help move 
forward quiet initiatives, such as trilateral negotiations on North 
Korea.
    An innovative approach would be to try and expand the limited 
trilateral military exercises that we current conduct. Exploring 
limited joint training is another way to help build trust between the 
two country's defense forces. Another idea is to consider a trilateral 
vision statement on the region's opportunities and challenges. Such a 
diplomatic document by the liberal leaders in Northeast Asia could even 
develop into a larger document bringing in such stalwart U.S. allies as 
Australia and those that feel increasing pressure from China, like the 
Philippines.
How to Create Stronger, Like-Minded Alliances?
    In making the rebalance a central part of its foreign policy 
strategy, the Obama administration has helped the American Government 
and public begin thinking about our interests in the post-Iraq and 
Afghanistan world. Recognizing the dynamic nature of the Asia-Pacific, 
its crucial importance to the global economy, its opportunity to help 
promote democracy, but also its security challenges is the beginning of 
setting American foreign and security policy on a new path.
    Yet the administration has also undercut its own policy in two 
ways: firstly, through defense cuts that make it more difficult to 
maintain U.S. presence abroad and call into question our long-term 
credibility; and secondly, by a hesitant approach to China's latest 
provocations that raise questions about our will in opposing 
destabilizing actions.
    Our allies, foremost among them Japan, have raised concerns about 
the competing priorities of the Obama administration. They worry that 
the rebalance is empty rhetoric and that Washington is all too eager to 
avoid antagonizing China. Both Seoul and Tokyo wonder if Washington is 
doing everything it can to blunt North Korea's plans to become a full 
nuclear power. They are concerned that we are too laissez faire about 
the balance of power, or perceptions of the balance of power, in Asia.
    It is in American interests to make clear to our allies that it is 
their responsibility to protect their own territory. But Washington 
must also assure its friends and partners that it will not let the 
balance of power in Asia shift in favor of those who seek to use might 
to achieve their objectives. An Asia in which coercion is regularly 
employed cannot be an Asia that remains peaceful and prosperous in the 
long run.
    There is much that we can do to ensure our resolve is clearly 
understood. The most important step the administration can take is to 
clarify for itself what its actual goals are in Asia. This was perhaps 
one of the key failings of the rebalance: it never articulated what the 
administration desired to accomplish. Is it to blunt China's assertive 
behavior, to promote democracy and liberalism, or to open markets? For 
example, the administration never fully explained why it was seeking 
more rotational basing opportunities for U.S. forces in Asia, which was 
perhaps the most visible of its rebalancing moves.
    The nations of Asia well understand that Washington and Beijing 
have very different visions for Asia's future. The administration would 
do well to recognize the reality that we and the Chinese unfortunately 
agree on very little and have competing goals. We can and should 
continue to try and work with the Chinese, but the clearest signal 
would be sent to our Northeast and Southeast Asian allies if we 
appeared to understand what is evident to everyone in the region: China 
seeks to build its power and influence to a point where it has the 
freedom of action to carry out any policy that it desires. While there 
is little reason to believe Beijing wants war or any type of conflict, 
it appears increasingly willing to risk hostilities because it believes 
that no one will oppose it.
    Second, Congress and the administration must do everything possible 
to ensure that current and projected defense cuts do not further erode 
our readiness or our presence in Asia. If the numbers of planes and 
ships in Asia start to dip, it will be harder to maintain our 
credibility. Joint exercises and military exchanges need to be fully 
funded, so that partner militaries believe that we remain a steadfast 
friend to them.
    Third, strategic planning exercises, like the Quadrennial Defense 
Review, should not be budget-driven documents, but rather explore what 
the military really needs in order to maintain its qualitative 
superiority in Asia. What types of weapons systems are best suited to 
Asia's unique challenges of distance and potential adversaries with 
growing capabilities? How can we take advantage of asymmetric means of 
defense? Once we have done that, then the Pentagon needs to reach out 
to Tokyo and Seoul to discuss the best ways in which they can build to 
their strengths and complement our investments.
    In short, in order to build like-minded alliances, both Congress 
and the pubic should push the administration to be clear-eyed about the 
challenges we face, openly discuss them, and have a realistic plan for 
meeting them. That would reassure our allies that we truly put our 
shared values at the center of our foreign policy and that we will not 
ignore the actions of those who seek to destabilize Asia in their 
favor. The result of such an approach will be stronger liberal 
alliances and quite likely a region that is more stable and prosperous.

    Senator Cardin. Well, thank you both. You have given a good 
overview of the strengths and what we have been able to 
accomplish in the rebalance, but also the challenges that lie 
ahead.
    And I was listening to both of your testimonies. I was 
struck by the maritime security issues that we talk about a 
great deal. Rather explosive. We are worried that it could 
trigger a major incident at any time. And thinking about the 
events over the past week in Ukraine, where Russia, for the 
second time, is using its military force to take control over 
lands that do not belong to Russia. There is no dispute that 
Crimea is Ukrainian territory, yet Russia is using its military 
there. And in the China Seas, the dominant military force is 
probably China. And we are all concerned as to whether they are 
going to just use military might, causing an incident. And now, 
if Russia's activities in Ukraine go unchallenged, does this 
raise the concern that China could use that as an example for 
its own military actions in disputed areas?
    Either one of you.
    Dr. Smith. Thank you, Mr. Chairman. I will start off the 
answer to that very complex question.
    I think last year I took a fairly careful look at the 
maritime risks inherent in China's new contestation of the 
Senkaku issues. And so, I would like to submit that for the 
record here, the----
    Senator Cardin. Absolutely. It will be made part of our 
record.
    Dr. Smith [continuing]. Council on Foreign Relations report 
on that. The United States has very deep interests, obviously, 
in any kind of incident, be it very small or in gray-zone areas 
or a more direct military confrontation in the East China Sea, 
so we have to be very careful in our thinking, but also talk 
very closely with Japan about its thinking about how it might 
manage a response to the Chinese.

[Editor's note.--The Council on Foreign Relations report 
mentioned above can be found in the ``Additional Material 
Submitted for the Record'' section at the end of this hearing.]

    Dr. Smith. I do not know that I would be ready quite yet to 
extrapolate from the Ukrainian situation into Chinese behavior. 
I have watched, over the last couple of days, China's initial 
responses to this, and they seem, themselves, quite cautious 
yet. I think there is an opportunity to engage with China, 
through the U.N. and directly, on its understanding of the 
situation in the Ukraine, and I think we ought to, with a 
particular emphasis on Chinese practices, as well.
    But, I think the escalatory path that I imagine in the East 
China Sea is one that could be direct, could come out of the 
island dispute, but could also be an opportunity that presents 
itself in a different confrontation; for example, a conflict on 
the Korean Peninsula, or, as you say, perhaps even elsewhere 
around the globe.
    I think the Japanese are particularly concerned about their 
readiness and their ability to respond, should China move 
against these disputed islands. And our ability to help them in 
making sure that they are ready to respond effectively, I 
think, will be very, very important.
    Senator Cardin. Thank you.
    Dr. Auslin.
    Dr. Auslin. Mr. Chairman, thank you for raising that.
    I think the short answer is, yes. And I think it is 
probably equally useful to look in the other direction, which 
is to say, What has Vladimir Putin seen in our reactions, or 
lack of reactions, to what China has been doing in this region 
for several years?--to say whether that may have encouraged his 
assessment of our willingness to--and the West's willingness, 
overall--to opposed his recent moves.
    I agree, I think that China is misjudging Japan's 
willingness to defend the Senkakus for as long as is entirely 
possible. And we just recently saw a move, out of the Japanese, 
to set up a new quick-response force of 3,000 forces that would 
be designed specifically for amphibious combat and to respond 
to any threats to the islands.
    But, in terms of what China, itself, is taking away from 
the Ukraine situation, the Chinese Foreign Ministry has come 
out with a statement supporting what Russia is doing. So, it is 
clear on which side they are aligning themselves. There is a 
consistency, in terms of their willingness to support 
destabilizing actors and actions around the world, and this is 
no different.
    Whether or not this, as Dr. Smith said, extrapolates into 
their willingness to raise the risk level and use force 
regarding the Senkakus, I would just simply say, I think the 
trendline has already moved in that direction. We and the 
Japanese have made very clear the ways in which we want this to 
be resolved peacefully. And yet, now we have an ADIZ, we have 
broader claims over the waters, and the spread of this to away 
from just patrol boats to the navy itself. So, I think we 
should be worried about the risk line, and certainly the 
lessons that Beijing is getting from watching our responses to 
other such provocations around the world.
    Thank you.
    Senator Cardin. Well, I thank you for that observation. It 
does have us very concerned. Another reason why how Ukraine is 
ultimately resolved is so important.
    Both of you have raised the dilemma of our relationship 
with Japan and the Republic of Korea and, so far, our inability 
to strengthen the ties between those two countries. So, what 
would you suggest that we could do that could get two allies 
that have strong views about each other to look to the future 
rather than to the past, recognizing the responsibility to 
acknowledge the historical issues?
    Dr. Auslin. Well, Mr. Chairman, if there were an easy 
solution to that answer, you know, we would all be celebrating 
it, and I am sure it would have been implemented. I think, 
again, what we need to be concerned about, at one level, is the 
trendline. And the trendline is, these relations are getting 
worse, they are not getting better. Whether China, itself, is 
seeking to put a wedge between South Korea and Japan, clearly 
President Park of South Korea has seen it in her own interest 
to move closer to China, to move away from what had been a 
fairly good working relationship with Japan. And that is 
something that has not improved over the year. And, in fact, 
Mr. Chairman, I would argue that that was probably a lot of the 
decision, going into the decision that Prime Minister Abe made 
to visit the shrine in December, quite frankly. You noted that 
it came on the first anniversary of his coming back into 
office. And I think he gave a year to try to see how these 
relations were going to work with both China and South Korea, 
and, at the end of it, concluded that he had very little to 
lose by doing what he thought was right for his own domestic 
constituency, and send a message that is--Japan would be 
looking out for its own interests.
    Again, I do not know what is going on behind closed doors, 
but I think there comes a time where we, given our commitments 
to both of these countries, need to be extraordinarily blunt 
and have a real heart-to-heart talk, so to speak, with both of 
them about the problems this is causing. And I would argue, 
quite frankly, that our patience is not infinite; that, to the 
degree that this makes our job harder for them, then they need 
to not only think about what that might ultimately cause, in 
terms of the ability of the United States to fulfill its 
commitments, but also how we may rethink what is in our own 
best interests.
    Thank you.
    Dr. Smith. Thank you, Mr. Chairman.
    I think the President's visit--President Obama's visit to 
the two capitals in April provides an opportunity, at the 
highest level, for the President to convey his concerns to both 
Prime Minister Abe and to President Park. I do think that there 
was a certain movement that we could see going on, on the part 
of governments in South Korea and Japan, toward the end of last 
year. Very initial discussions with our team here in Washington 
and people in the think-tank world, as well, to sort of feel 
our way through of what a comprehensive discussion might look 
like between these two countries. Unfortunately, Prime Minister 
Abe's visit to Yasukuni, I think, has set that back somewhat.
    I do think reconciliation, the final reconciliation between 
these two countries, needs to incorporate a broad host of 
issues. South Koreans are very concerned about Mr. Abe's views 
on history, have asked him, directly and repeatedly, to 
reaffirm his commitment to both the Murayama and the Kono 
statements. I think, on the side of the Japanese, I hear often 
that reopening the basis of the 1965 treaty, restarting again a 
conversation about compensation and settlements, when that was 
diplomatically accounted for in 1965, that would be a problem 
on the Japanese side. So, I think you have bookends at both 
ends here within which the Japanese and South Korean leaders 
will have to discuss what they think is possible.
    I do think that the power of the Presidency is great, and 
the President's direct engagement with these two leaders may 
provide some stimulus to a conversation, perhaps a trilateral 
meeting later this year at the UNGA meeting in September, for 
example, may be another opportunity, down the road.
    Thank you.
    Senator Cardin. I would strongly support what you are 
saying about the President's visit, and I would hope he would 
have concrete suggestions, not just, ``You need to improve the 
relationship,'' but steps that could be taken by both leaders 
in doing that.
    I had a chance to meet with both leaders in May in their 
respective capitals, and I sensed a real interest in trying to 
move forward. But, since that time, just the reverse has taken 
place.
    One final question or observation for you, and that is, in 
Japan, the interpretation of their constitution to allow for 
self-defense I think makes it possible that Japan will take its 
military presence to a new level. Is that a positive or a 
negative or just a reality type of observation? Is this 
something that we should be concerned about, or is this a 
natural evolution for Japan?
    Dr. Smith. Thank you, Mr. Chairman, for that question.
    I think the interpretation of collective self-defense has 
been outlined by the Abe Cabinet in a very specific way. And I 
suspect that, in April, the report of his advisory committee 
will be issued, and we will see the government develop very 
concretely what it means when it says that the Japanese 
military should be able to work alongside the United States 
military and perhaps other countries in the region in 
humanitarian and disaster capacities. So, I think we will get 
more granularity to the concept that the Abe government is 
putting forward in the next 5 to 6 months.
    I also suspect that the United States Department of Defense 
and the Japanese Ministry of Defense will be talking very 
carefully about how this will affect and enhance alliance 
cooperation on a number of the kinds of contingencies that we 
have talked about here this afternoon.
    I am not so much worried about the progress of this 
discussion, in large part because I trust the democratic 
practices of Japan. Their legislature will be very involved in 
that discussion, and I do not think you are going to see any 
government, be it Mr. Abe's or any others, be able to move the 
Japanese people in a direction that they do not want to go.
    So, I suspect you will have a very full parliamentary 
discussion this coming fall and that you will hear all kinds of 
viewpoints representing the popular sentiments and concerns 
inside Japan about reinterpreting that particular piece of 
Japan's Constitution.
    Thank you.
    Dr. Auslin. Mr. Chairman, I would just say, we should be 
concerned only if it does not go through. I think that it is an 
extraordinarily important step for Japan that is part of moves 
that have been undertaken by both the Democratic Party, when it 
was in power, and now under Mr. Abe, which is, for example, 
buying the F-35s and the increase in their abilities in 
ballistic missile defense, as we have seen.
    Allowing for a reinterpretation of the right to the 
exercise of collective self-defense will only help Japan become 
an exporter of security, and that is something we want to see. 
We want to see Japan not be as isolated as it has been for many 
of its neighbors, but to--as much as it has done work on things 
like counterterrorism and antiterrorism, on--its Coast Guard is 
active around the region. This is an extraordinary opportunity 
for Japan to become truly engaged with its neighbors in a way 
that removes ambiguity about its commitment to stability in the 
region. And so, anything that we can do to encourage this or 
encourage the process within the structures of the alliance, I 
think we should be doing.
    Thank you.
    Senator Cardin. Well, once again, thank both of you for 
your very helpful testimony before the subcommittee. And I will 
look forward to reading the report that you have submitted for 
our review.
    We are going to keep the committee record open until close 
of business Friday, in the likelihood that members may have 
questions that they would like to submit for the record. If you 
are the recipient of those questions, we ask that you try to 
respond as promptly as possible.
    And, with that, the subcommittee will stand adjourned.
    Thank you.
    [Whereupon, at 4:05 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


                Response of David F. Helvey to Question 
                Submitted by Senator Benjamin L. Cardin

                      futenma replacement facility
    Question. The relocation of Marine Corps Air Station Futenma in 
Okinawa has been a thorn in the side of the alliance for over 15 years, 
although the Okinawan Governor's landfill permit approval late last 
year was an important milestone that should allow for more progress 
with this project. You stated that the realignment and movement of 
troops to Guam is "on-track."

  <diamond> Is the Department of Defense confident that Japan and the 
        United States are on the same page when it comes to the 
        sequencing and funding for the Futenma Replacement Facility and 
        the movement of troops to Guam?
  <diamond> Are the stakeholders in this process prepared to make 
        timely decisions and take care of their own responsibilities 
        efficiently?

    Answer. The Department has closely coordinated with the Government 
of Japan to ensure that we have a common plan for sequencing and 
funding of the realignment initiatives on Okinawa and Guam, including 
the Futenma Replacement Facility. This multifaceted effort is regularly 
reviewed to take into account both actual and anticipated changes 
occurring in the implementation of this plan.
    As part of this review process, working together with our GoJ 
counterparts, and taking into account variables such as available 
funding, construction capacity and sequencing, and collateral 
construction requirements, we have and will continue to make 
adjustments to the plan in as efficient and timely a manner as 
possible.
                                 ______
                                 

Council on Foreign Relations Report ``A Sino-Japanese Clash in the East 
              China Sea'' Submitted by Dr. Sheila A. Smith
              
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                  <all>
</pre></body></html>
